This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




                     REPORT OF INVESTIGATION


 UNITED STATES SECURITIES AND EXCHANGE COMMISSION


            OFFICE OF INSPECTOR GENERAL




                                       Case No. OIG-567




       Destruction of Records Related to Matters Under Inquiry and


       Incomplete Statements to the National Archives and Records 

                Administration Regarding that Destruction


                      by the Division of Enforcement





                                         October 5, 2011


                              OIG-567 Redaction Key


    All redactions have been made pursuant to FOIA Exemptions (b)(6) & (b)(7)(C).
 
     document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



                                         REPORT OF INVESTIGATION

                                                     Case No. OIG-567

     Destruction of Records Related to Matters Under Inquiry and Incomplete
  Statements to the National Archives and Records Administration Regarding that
                    Destruction by the Division of Enforcement


                                                   Table of Contents


INTRODUCTION AND SUMMARY OF RESULTS ...................................................... 1
SCOPE OF THE OIG INVESTIGATION ......................................................................... 4
  I.        Review ofE-mails ................................................................................................... 4
   II. Document Requests and Review of Records ........................................................... 4
   III. Testimony and Interviews ............................................................ ,.......................... 5
RELEVANT STATUTES, RULES AND REGULATIONS ............................................. 7
RESULTS OF THE INVESTIGATION .......................................................................... 11
  I.        Until July 2010, the SEC's Policy was to Destroy its MUI Files
            Upon Closure ......................................................................................................... 11
       A. Enforcement's Distinction Between MUIs and Investigations .......................... 11
       B. The SEC's Long-Standing Policy Has Been to Preserve Certain
          Documents Related to its Investigations ............................................................ 13
       C. Unlike its Policy with Respect to Investigations, the SEC's
          Longstanding Policy Prior to July 20, 2010 was to Destroy All
          Documents Related to Closed MUIs ................................................................. 15
       D. In 2009 and 2010, the SEC's SEC1 - - - Repeatedly Raised
          Concerns About the Disposition ofMUI Records ............................................. 17
       E.      On June 16,2010, the SEC's SEC1               Directed Enforcement to
               Preserve its MUI Records .................................................................................. 20
       F.      In Late June 2010, a SEC Staff Attorney Contacted NARA
               Concerning the Destruction ofMUI Records .................................................... 24
       G. On July 20,2010, Enforcement Sent Division-Wide Guidance to
          Preserve MUI Records ....................................................................................... 26
   II. The OIG Found that the SEC's Enforcement Staff Destroyed
       Documents Related to Closed MUIs that Should Have Been
       Preserved as Federal Records ........................................ .-....................................... 27
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



   III. 	 The SEC's Response to NARA Regarding its Destruction of 

          Records Related to Closed MUIs was Incomplete ................................................ 35 

      A. 	 On July 29,2010 NARA Sent the SEC a Letter Seeking a 

           Written Report Concerning its Past Destruction ofMUI Records .................... 35 

      B. 	 The Division of Enforcement Responded to NARA that it was 

           "Not Aware of Any Specific Instances ofthe Destruction of 

           Records" Related to Closed MUIs ..................................................................... 35 

      C. 	 The Response to NARA Did Not Comply with Federal 

           Regulations ........................................................................................................ 42 

      D. 	 The Response to NARA Omitted Pertinent Information ................................... 43 

          1. 	 The SEC's Response Omitted the Fact that it Had Been 

                Enforcement's Policy to Destroy All Documents Upon 

                Closing a MUI ............................................................................................... 43 

          2. 	 The Division ofEnforcement was in Fact Aware of Specific 

               Instances ofthe Destruction of Records ........................................................ 44 

      E. 	 NARA Remains Concerned about Enforcement's Disposition of 

           MUI Records ...................................................................................................... 48 

   IV. Allegations about Enforcement's Records Retention Schedule for 

       its Investigations .................................................................................................... 49 

   V. 	 The SEC's Destruction ofMUI Records May Have Impacted its 

        Ability to Respond to FOIA Requests ............... ;................................................... 52 

CONCLUSION................................................................................................................. 52 





                                                               II
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                          REPORT OF INVESTIGATION

      UNITED STATES SECURITIES AND EXCHANGE COMMISSION
                 OFFICE OF INSPECTOR GENERAL


                                         Case No. OIG-567



        Destruction of Records Related to Matters Under Inquiry and


        Incomplete Statements to the National Archives and Records 

                 Administration Regarding that Destruction


                       by the Division of Enforcement



                     INTRODUCTION AND SUMMARY OF RESULTS

          On June 15, 2011, the Securities and Exchange Commission (“SEC” or
 “Commission”) Office of Inspector General (“OIG”) opened an investigation into
 allegations made in a letter of the same date from Gary Aguirre, 1 counsel for Darcy
 Flynn, a senior counsel in the SEC Division of Enforcement (“Enforcement”), to
 Chairman Mary Schapiro. The letter alleged that Enforcement has improperly destroyed
 records relating to Matters Under Inquiry (“MUIs”) over the past two decades, and that
 the SEC made misleading statements in an August 27, 2010 response to a July 29, 2010
 letter from the National Archives and Records Administration (“NARA”) concerning the
 SEC’s potential unauthorized destruction of MUI records. 2 On September 6, 2011, Flynn
 and his attorney raised new allegations that the SEC does not have authority to destroy



 1
     Aguirre is a former Enforcement staff attorney who was fired by the SEC on September 1, 2005. At the
 time of his firing, Aguirre was the principal staff attorney assigned to an investigation of Pequot Capital
 Management (“Pequot”). Enforcement’s conduct of that Pequot investigation and the circumstances of
 Aguirre’s firing were the subjects of a Senate Finance and Judiciary Committees hearing and an OIG
 Report. See September 30, 2008 Report of Investigation: Case No. OIG-431, Reinvestigation of Claims by
 Gary Aguirre of Preferential Treatment and Improper Termination; August 2007 Senate Committees on
 Finance and on the Judiciary, “The Firing of an SEC Attorney and the Investigation of Pequot Capital
 Management.” Aguirre subsequently alleged that his termination was a result of his aggressive
 investigation of Pequot and filed a wrongful termination lawsuit. The SEC agreed to pay Aguirre $755,000
 in settlement of his wrongful termination lawsuit.
 2
     This investigation was originally opened as OIG-564, to investigate the above allegations as well as
 other allegations from Flynn’s counsel that in PII
PII

PII                                                                           . The OIG anticipates that it
 will shortly issue a Report of Investigation for OIG-564 addressing these allegations concerning the former
 Director of Enforcement.
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



three categories of documents that are currently not scheduled: (1) documents produced
by third parties; (2) internal work product; and (3) internal e-mails. 3

       The OIG investigation found that for at least 30 years, Enforcement has opened
MUIs as “pre-investigation inquiries.” MUIs are distinct from formal investigations in
Enforcement and are “opened to collect and analyze information to determine whether an
enforcement investigation should be instituted.” The OIG investigation found that it had
been the policy of Enforcement, from the point of time in which MUIs were first created
in approximately 1981 until July 20, 2010, to dispose of all documents relating to a MUI
that were closed without becoming investigations. According to Enforcement, between
October 1, 1992 and July 20, 2010, Enforcement opened 23,289 MUIs. Of those 23,289
MUIs, 10,468 MUIs were closed without becoming an investigation or another MUI.

        The OIG investigation found Enforcement’s case closing manual, which has been
posted on Enforcement’s Intranet since at least 2001, specifically directed Enforcement
attorneys, “After you have closed a MUI that has not become an investigation, you
should dispose of any documents obtained in connection with the MUI.” The OIG did
not find evidence of an improper motive behind Enforcement’s longstanding policy of
destroying documents related to closed MUIs that did not become investigations,
although there was a lack of clarity as to the rationale for the policy.

        The OIG investigation also found that the SEC’s Enforcement staff destroyed
documents related to closed MUIs that should have been preserved as federal records.
These documents included anonymous correspondence and complaints, correspondence
from the SEC requesting documents from companies in the course of a MUI, and
correspondence to accompany companies’ document production responses. However,
notwithstanding these instances of record destruction in connection with MUIs that were
closed without becoming investigations, the OIG is not aware of a particular investigation
that was hampered by the destruction of records for a MUI, although the OIG has not
conducted an exhaustive audit or review of the potential impact on Enforcement
investigations of the destruction of MUI documents over the years.

        The OIG investigation also found that after SEC Enforcement attorney Darcy
Flynn informed NARA in June 2010 that the SEC had been destroying records relating to
MUIs for years, NARA sent a letter to the SEC on July 29, 2010 asking the SEC to look
into the apparent unauthorized disposal of Federal records. However, we found that in
the process of drafting a response to NARA, the SEC made no inquiries designed to
determine whether MUI records were in fact destroyed. Instead, Enforcement declared in

3
   On September 27, 2011, Citizens for Responsibility and Ethics in Washington filed a civil complaint in
the United States District Court for the District of Columbia against the SEC and Chairman Mary Schapiro.
Complaint for Declaratory, Injunctive, and Mandamus Relief, attached as Exhibit 1. The complaint
requested that the court declare that the SEC’s document destruction policy violates Federal law and that
the court order the SEC and Chairman Schapiro “to develop and implement an effective records
management system” and to “initiate action through the attorney general and internally to recover
destroyed investigative files and prevent the further destruction of those files . . . .” Id. at 19-20.

                                                    2

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



a letter dated August 27, 2010 that it was “not aware of any specific instances of the
destruction of records from any [MUIs that were closed without a subsequent formal
investigation], but we cannot say with certainty that no such documents have been
destroyed over the past seventeen years.”

        We found that the SEC’s August 27, 2010 response to NARA did not comply
with federal regulations as it did not provide “a complete description of the records with
volume and dates if known” and “a statement of the exact circumstances surrounding the
removal, defacing, alteration or destruction of records” as required by 36 C.F.R. §
1230.14(a). In addition, we found that the SEC’s response to NARA omitted information
important to understanding the scope and nature of the issue relating to the destruction of
MUI records. Most significantly, the SEC’s response omitted the fact that it had been
Enforcement’s policy to destroy all documents upon closing a MUI. Moreover, despite
the statement in the SEC’s August 27, 2010 response letter that “the Division is not aware
of any specific instances of the destruction of records from any other MUI (i.e., a MUI
that was closed without a subsequent formal investigation), but we cannot say with
certainty that no such documents have been destroyed over the past seventeen years,” we
found that the Division of Enforcement was aware of at least one specific instance of the
destruction of records from a MUI that was closed without a subsequent formal
investigation.

        The OIG investigation also found that, although Enforcement has destroyed,
pursuant to long-time policy, three categories of documents that are currently not
scheduled (documents produced by third parties, internal work product, and internal e-
mails), the SEC’s SEC1      has opined that these documents were not records that were
required to be retained. Although it does not appear that these three categories of
documents have been improperly destroyed without authority to do so, the OIG is
recommending that the SEC seek formal guidance from NARA to ensure that these
documents are disposed in accordance with Federal law.

       While the OIG did not find evidence that the individuals who were responsible for
preparing the response to NARA intentionally made materially false statements in that
response, we did find that certain senior Enforcement officials, in light of the information
that was available to them at the time, should have drafted a response to NARA that was
more forthcoming. Accordingly, we are referring this matter to the Director of
Enforcement, for oral instruction or counseling of those individuals on the importance of
providing full and complete responses to official requests from federal agencies like
NARA.

        We are also recommending that the Division of Enforcement: (1) take
appropriate steps as necessary, including coordination with Enforcement attorneys
nationwide, to determine what federal records from closed MUIs are retrievable, and
ensure that any such federal records are retained in the same manner that investigative
records are retained pursuant to the current schedule with NARA; (2) work with the
SEC’s Office of Records Management Services and NARA to determine which MUI and

                                                    3


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



investigative records are legally required to be retained; (3) determine if there are
additional federal records that, while not legally required to be retained, should be
retained as a matter of Enforcement program policy, to enable the Enforcement staff to
understand what investigative work has been done in closed MUIs and investigations, or
for other policy reasons; and (4) review its guidance, including as it relates to
automatically generated e-mails, to ensure that all guidance is consistent with
Enforcement’s federal record retention legal obligations.


                           SCOPE OF THE OIG INVESTIGATION

         I.       Review of E-mails

        The OIG made numerous requests to the SEC’s Office of Information Technology
(“OIT”) for the e-mails of current and former SEC employees for various periods of time
pertinent to the investigation. The e-mails were received, loaded onto computers with
specialized search tools, and searched on a continuous basis throughout the course of the
investigation.

        In all, the OIG received from OIT e-mails for a total of ten current or former SEC
employees. These included: six current or former employees of the Division of
Enforcement; three current employees of the Office of FOIA, Records Management, and
Security; and one current employee of the Office of the Chief Operating Officer. The
OIG estimates that it obtained and searched over 500,000 e-mails during the course of its
investigation.

         II.      Document Requests and Review of Records

         The OIG made several requests to the Division of Enforcement for documents
relating to MUI policies and procedures, as well as data relating to MUIs that were closed
without becoming investigations. The OIG also made several requests to the Office of
Records Management Services relating to SEC records management policy. The OIG
made requests to Enforcement attorneys for information and documents pertaining to
over a dozen particular MUIs. The OIG also sought and received a written opinion from
NARA on several issues relating to MUI documents and the SEC’s August 27, 2010
letter to NARA, and has been in communication with NARA officials on an ongoing
basis during the course of the investigation.

      We carefully reviewed and analyzed the information received as a result of our
document production requests. In addition, the OIG reviewed HUB Case Reports and
Name Relationship Search Index (“NRSI”) 4 Reports for over a dozen particular

4
    The HUB is Enforcement’s electronic case management and tracking system. NRSI is used by the
Enforcement staff to research whether a person or entity has been the subject or a related party to any
closed or open MUIs or investigations.

                                                     4

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



Enforcement MUIs. The OIG also reviewed handwritten notes taken by an Enforcement
staff attorney at various meetings and handwritten meeting notes taken by the SEC
SEC1




            III.     Testimony and Interviews

        The OIG took the sworn testimony of eleven witnesses and interviewed thirteen
individuals with relevant expertise and/or knowledge of facts and circumstances pertinent
to the investigation.

        The OIG conducted testimony on-the-record and under oath of the following
eleven individuals:

       1.		 Darcy Flynn, Senior Counsel, Division of Enforcement, Securities and Exchange
            Commission; taken on July 8, 2011 (“Flynn Testimony Tr.”). Excerpts of
            testimony transcript are attached as Exhibit 2.
            SEC1    SEC1
       2.                           , Office of Records Management Services, Securities and
                                 SEC1
                                                              SEC1
            Exchange Commission; taken on July 26, 2011 (“            Testimony Tr.”). 

            Excerpts of testimony transcript are attached as Exhibit 3. 


       3.		 Barry Walters, Director, Office of FOIA, Records Management, and Security,
            Securities and Exchange Commission; taken on July 27, 2011 (“Walters
            Testimony Tr.”). Excerpts of testimony transcript are attached as Exhibit 4.
            ENF10     ENF10          ENF10
       4.                                              Division of Enforcement, Securities
                                                                    ENF10
            and Exchange Commission; taken on August 2, 2011 (“            Testimony Tr.”).
            Excerpts of testimony transcript are attached as Exhibit 5.
            ENF4       ENF4
       5.                 Attorney, Division of Enforcement, Securities and Exchange
                                                     ENF4
            Commission; taken on August 5, 2011 (“          Testimony Tr.”). Excerpts of
            testimony transcript are attached as Exhibit 6.
            SEC3    SEC3
       6.                     SEC3
                                        , Office of Records Management Services, Securities
                                                                      SEC3
            and Exchange Commission; taken on August 10, 2011 (“           Testimony Tr.”).
            Excerpts of testimony transcript are attached as Exhibit 7.

       7.		 Jeffery Heslop, Chief Operating Officer, Securities and Exchange Commission;
            taken on August 10, 2011 (“Heslop Testimony Tr.”). Excerpts of testimony
            transcript are attached as Exhibit 8.
            SEC2    SEC2
       8.                            SEC2	              , Division of Enforcement,
                                                                               SEC2
            Securities and Exchange Commission; taken on August 17, 2011 (“
            Testimony Tr.”). Excerpts of testimony transcript are attached as Exhibit 9.


                                                    5


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


         ENF6   ENF6
    9.               Senior Counsel, Division of Enforcement, Securities and Exchange
                                                    ENF6
         Commission; taken on August 29, 2011 (“          Testimony Tr.”). Excerpts of
         testimony transcript are attached as Exhibit 10.

    10. Adam Storch, Managing Executive, Division of Enforcement, Securities and
        Exchange Commission; taken on September 1, 2011 (“Storch Testimony Tr.”).
        Excerpts of testimony transcript are attached as Exhibit 11.

    11. Joan McKown, former Chief Counsel, Division of Enforcement, Securities and
        Exchange Commission; taken on September 1, 2011 (“McKown Testimony Tr.”).
        Excerpts of testimony transcript are attached as Exhibit 12.

         The OIG also conducted interviews of the following thirteen individuals:
         Arc1    Arc1
    1.                       ARC1    , National Archives and Records Administration;
                                         Arc1
         conducted on July 28, 2011 (“            Interview Memorandum”). Memorandum
         of Interview is attached as Exhibit 13.
         ENF1    ENF1
    2.                 Attorney, Division of Enforcement, Securities and Exchange
                                                    ENF1
         Commission; conducted on August 31, 2011 (“         Interview
         Memorandum”). Memorandum of Interview is attached as Exhibit 14.
         ENF2      ENF2
    3.                         Attorney, Enforcement, New York Regional Office,
         Securities and Exchange Commission; conducted on August 31, 2011
           ENF2
         (“             Interview Memorandum”). Memorandum of Interview is attached
         as Exhibit 15.
         ENF3   ENF3
    4.                Senior Counsel, Division of Enforcement, Securities and
                                                              ENF3
         Exchange Commission; conducted on August 31, 2011 (“           Interview
         Memorandum”). Memorandum of Interview is attached as Exhibit 16.
         ENF5     ENF5
    5.                 Attorney, Division of Enforcement, Securities and Exchange
                                                     ENF5
         Commission; conducted on August 31, 2011 (“        Interview Memorandum”).
         Memorandum of Interview is attached as Exhibit 17.

    6.		 Andrew Calamari, Associate Regional Director, Enforcement, New York
         Regional Office, Securities and Exchange Commission; conducted on August 31,
         2011 (“Calamari Interview Memorandum”). Memorandum of Interview is
         attached as Exhibit 18.
         ENF9   ENF9
    7.                    ENF9                    , Enforcement, San Francisco Regional
         Office, Securities and Exchange Commission; conducted on August 31, 2011 and
                               ENF9
         September 1, 2011 (“          Interview Memorandum”). Memorandum of
         Interviews is attached as Exhibit 19.


                                                    6


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


          ENF7      ENF7
    8.                    Supervisory Attorney, Enforcement, New York Regional Office,
                                                                                ENF7
          Securities and Exchange Commission; conducted on September 1, 2011 (“
          Interview Memorandum”). Memorandum of Interview is attached as Exhibit 20.

    9.		 Michael Dicke, Assistant Regional Director, Enforcement, San Francisco
         Regional Office, Securities and Exchange Commission; conducted on September
         1, 2011 (“Dicke Interview Memorandum”). Memorandum of Interview is
         attached as Exhibit 21.

    10. Darcy Flynn, Senior Counsel, Division of Enforcement, Securities and Exchange
        Commission; conducted on September 1, 2011 (“Flynn Interview
        Memorandum”). Memorandum of Interview is attached as Exhibit 22.
          ENF8   ENF8
    11.               former Attorney, Division of Enforcement, Securities and
                                                                 ENF8
          Exchange Commission; conducted on September 2, 2011 (“          Interview
          Memorandum”). Memorandum of Interview is attached as Exhibit 23.
          SEC1    SEC1     SEC1
    12.                            Office of Records Management Services, Securities and
          Exchange Commission; conducted on September 9, 2011, and September 22,
                 SEC1
          2011 (“        Interview Memorandum”). Memorandum of Interviews is attached
          as Exhibit 24.
          SEC4   SEC4
    13.                    SEC4
                                       Securities and Exchange Commission; conducted on
                                 SEC4
          September 19, 2011 (“         Interview Memorandum”). Memorandum of
          Interview is attached as Exhibit 25.


                 RELEVANT STATUTES, RULES AND REGULATIONS

                                          Federal Statutes

          18 U.S.C. § 2071

        (a) Whoever willfully and unlawfully conceals, removes, mutilates, obliterates, or
destroys, or attempts to do so, or, with intent to do so takes and carries away any record,
proceeding, map, book, paper, document, or other thing, filed or deposited with any clerk
or officer of any court of the United States, or in any public office, or with any judicial or
public officer of the United States, shall be fined under this title or imprisoned not more
than three years, or both.

        (b) Whoever, having the custody of any such record, proceeding, map, book,
document, paper, or other thing, willfully and unlawfully conceals, removes, mutilates,
obliterates, falsifies, or destroys the same, shall be fined under this title or imprisoned not
more than three years, or both; and shall forfeit his office and be disqualified from
holding any office under the United States. As used in this subsection, the term “office”
                                                    7


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



does not include the office held by any person as a retired officer of the Armed Forces of
the United States.

        44 U.S.C. § 3101

       The head of each Federal agency shall make and preserve records containing
adequate and proper documentation of the organization, functions, policies, decisions,
procedures, and essential transactions of the agency and designed to furnish the
information necessary to protect the legal and financial rights of the Government and of
persons directly affected by the agency’s activities.

        44 U.S.C. § 3106

        The head of each Federal agency shall notify the Archivist of any actual,
impending, or threatened unlawful removal, defacing, alteration, or destruction of records
in the custody of the agency of which he is the head that shall come to his attention, and
with the assistance of the Archivist shall initiate action through the Attorney General for
the recovery of records he knows or has reason to believe have been unlawfully removed
from his agency . . . .

        18 U.S.C. § 1001

        Except as otherwise provided in this section, whoever, in any matter within the
jurisdiction of the executive, legislative, or judicial branch of the Government of the
United States, knowingly and willfully –

     (1) falsifies, conceals, or covers up by any trick, scheme, or device a material fact;

     (2) makes any materially false, fictitious, or fraudulent statement or representation;
          or
     (3) makes or uses any false writing or document knowing the same to contain any
      materially false, fictitious, or fraudulent statement or entry;

shall be fined under this title, imprisoned not more than 5 years . . . .

                                   Code of Federal Regulations

        36 C.F.R. § 1230.3

        . . . Unlawful or accidental destruction (also called unauthorized destruction)
means disposal of an unscheduled or permanent record; disposal prior to the end of the
NARA-approved retention period of a temporary record (other than court-ordered
disposal . . . ); and disposal of a record subject to a FOIA request, litigation hold, or any
other hold requirement to retain the records.


                                                    8

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



        36 C.F.R. § 1230.10

        The heads of Federal Agencies must:

          (a) Prevent the unlawful or accidental removal, defacing, alteration, or
          destruction of records . . . . Records must not be destroyed except under the
          provisions of NARA-approved agency records schedules or the General Records
          Schedules issued by NARA;

          (b) Take adequate measures to inform all employees and contractors of the
          provisions of the law relating to unauthorized destruction, removal, alteration or
          defacement of records;

          (c) Implement and disseminate policies and procedures to ensure that records are
          protected against unlawful or accidental removal, defacing, alteration and
          destruction; and

          (d) Direct that any unauthorized removal, defacing, alteration or destruction be
          reported to NARA.

        36 C.F.R. § 1230.12

       The penalties for the unlawful or accidental removal, defacing, alteration, or
destruction of Federal records or the attempt to do so, include a fine, imprisonment, or
both (18 U.S.C. 641 and 2071).

        36 C.F.R. § 1230.14

        The agency must report promptly any unlawful or accidental removal, defacing,
alteration, or destruction of records in the custody of that agency to [NARA].

        (a) The report must include:

              (1) A complete description of the records with volume and dates if known;

              (2) The office maintaining the records;

              (3) A statement of the exact circumstances surrounding the removal,
              defacing, alteration, or destruction of records;

              (4) A statement of the safeguards established to prevent further loss of
              documentation; and

              (5) When appropriate, details of the actions taken to salvage, retrieve, or
              reconstruct the records.

                                                    9

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




       (b) The report must be submitted or approved by the individual authorized to sign
records schedules . . . .

                                Commission Conduct Regulation

        The Commission’s Regulation Concerning Conduct of Members and Employees
and Former Members and Employees of the Commission (hereinafter “Conduct
Regulation”), at 17 C.F.R. § 200.735-1 et seq., sets forth the standards of ethical conduct
required of Commission members (i.e., Commissioners) and employees (hereinafter
referred to collectively as “employees”). The Conduct Regulation states:

                 (a) The Securities and Exchange Commission has been
                 entrusted by Congress with the protection of the public
                 interest in a highly significant area of our national
                 economy. In view of the effect which Commission action
                 frequently has on the general public, it is important that
                 members, employees and special Government employees
                 maintain unusually high standards of honesty, integrity,
                 impartiality and conduct. They must be constantly aware
                 of the need to avoid situations which might result either in
                 actual or apparent misconduct or conflicts of interest and to
                 conduct themselves in their official relationships in a
                 manner which commands the respect and confidence of
                 their fellow citizens.

                 (b) For these reasons, members, employees and special
                 Government employees should at all times abide by the
                 standards of ethical conduct for employees of the executive
                 branch (codified in 5 CFR part 2635); the supplemental
                 standards of ethical conduct for members and employees of
                 the Securities and Exchange Commission (codified in 5
                 CFR part 4401); the standards of conduct set forth in this
                 subpart; the Canons of ethics for members of the Securities
                 and Exchange Commission (codified in subpart C of this
                 part 200); and, in the case of a person practicing a
                 profession as defined in 5 CFR 1636.305(b)(1), the
                 applicable professional ethical standards.

17 C.F.R. § 200.735-2 (emphasis added).




                                                   10


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                            RESULTS OF THE INVESTIGATION

        I.		     Until July 2010, the SEC’s Policy was to Destroy its MUI Files Upon
                 Closure

                 A. Enforcement’s Distinction Between MUIs and Investigations

        For at least 30 years, Enforcement has opened MUIs as “pre-investigation
inquiries.” March 16, 1998 Memorandum from William McLucas, then the Director of
Enforcement, to All Professional Enforcement Staff (the “1998 McLucas
Memorandum”), attached as Exhibit 26; June 29, 2001 Case Closing Memorandum,
                                  ENF4
attached as Exhibit 27; see also       Testimony Tr. at 9-10, 69. MUIs are distinct from
                                                        ENF4     ENF4
investigations in the SEC’s Division of Enforcement.                  an attorney in
Enforcement’s ENF4	                                                                  s in
Enforcement, testified that, in 1981, the SEC created the electronic MUI system, “in 

which staff entered an indicator that they were looking at something.”
 ENF4 Testimony

Tr. at 9-10, 69. 

        ENF8    ENF8	
                        an attorney at the SEC from ENF8               in various offices
including Enforcement’s Office of Chief Counsel, stated in an interview with OIG that
the MUI system was created as an “early-warning” notification so that an attorney
considering opening a MUI would be able to see that there was already one opened for
                                                            ENF8  ENF8
the same matter, and there would not be duplicated work.                  Interview
                 ENF8
Memorandum.               stated to the OIG that MUIs were never intended to replace
investigations, but to be “quick hits.” Id.

        The 1998 McLucas Memorandum stated:

                 A Matter Under Inquiry (MUI) is opened to collect and
                 analyze information to determine whether an enforcement
                 investigation should be instituted. It is important to open a
                 MUI as soon as possible to provide notice to the rest of the
                 Division and the Commission (through the NRSI system)
                 that an inquiry is being conducted.

Exhibit 26 at 1. The memorandum further stated:

                 A MUI is not a substitute for an investigation. A MUI is
                 intended as simply a quick look at readily available
                 information, in order to determine whether an investigation
                 should be opened. An investigation is to be opened at any
                 point we determine to investigate potential securities laws
                 violations, whether or not a formal order has been issued.



                                                   11

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 A major reason for tracking MUI’s in the computerized
                 MUI system is to provide other offices with notice as soon
                 as possible that the matter is under consideration for
                 possible investigation. MUI files are not stored as official
                 files of the Commission. Testimony should be taken only
                 after an investigation has been opened.

                 Because a MUI is merely a pre-investigation inquiry, it has
                 a short life. . . . A MUI should be terminated after 80 hours
                 [of work has been performed by the staff in connection
                 with the MUI] or, at the outside, after it has been opened
                 for two months. Please review all of your outstanding
                 MUI’s, and either close them or convert them to
                 investigations where appropriate.

Id. (emphasis in original); see also Exhibit 27, June 29, 2001 Case Closing Memorandum
(“Because a MUI is merely a pre-investigation inquiry, it has a short life. A MUI should
be terminated after 80 hours [of work have been performed by the staff in connection
with the MUI], or, at the outside, after it has been opened for two months.”).

        In 2003, Enforcement changed its case tracking computer system so that any MUI
that had been open for over 60 days would automatically become an investigation in the
case tracking computer system. December 11, 2002 E-mail from Joan McKown to all
Enforcement staff, attached as Exhibit 28. In a December 11, 2002 e-mail to all
Enforcement staff explaining this automatic conversion from MUI to investigation after
60 days, Joan McKown, then the Division of Enforcement’s Chief Counsel, wrote:

                 You will probably want to make it a practice to review
                 open MUIs and close them out or open them into
                 investigations prior to the 60 day limit, and you will
                 definitely want to do this prior to January, since there are a
                 large number of aged open MUIs; it is much easier to close
                 a MUI than to close an investigation.

Id. at 2. The current version of the SEC’s Enforcement Manual states: “While a MUI
can be opened on the basis of very limited information, an investigation should be opened
after the assigned staff has done some additional information-gathering and analysis.”
Excerpt from August 2, 2011 Enforcement Manual Section 2.3.2, attached as Exhibit 29.

       Officials in Enforcement’s Office of the Chief Counsel expressed an
                                                                    ENF10                  ENF10
understanding of MUIs similar to this written guidance cited above.                        the
ENF10
                                                                                   testified
that a MUI is “an informal investigation where we are looking at something that might be
a violation of the federal securities laws, but it hadn’t reached the point where we feel the
                                                            ENF10
need, for a number of reasons, to seek a formal order.”             Testimony Tr. at 9-11.

                                                   12


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



Joan McKown, the chief counsel for Enforcement from November 1993 through July
2010, testified that a MUI is “something that has come into the office. It’s come to the
attention of the Enforcement staff. They haven’t decided whether to open an
investigation yet, and they are taking a brief look at the matter.” McKown Testimony Tr.
at 7.

         An Enforcement staff attorney who has worked in the division since 1999
testified:

                 When it comes to MUIs, the way they’ve been treated has
                 changed over time . . . . [A]t one point in time years and
                 years ago, you did not have to convert a MUI to [an
                 investigation and] could keep [the MUI] open for years and
                 obtain all of these categories [of records identified in a
                 1993 Enforcement-wide memorandum discussed in Section
                 I.B. below] except for the litigation category . . . .

                 Then it changed at some point where a MUI could only be
                 open for 60 days, and then . . . it would automatically
                 convert to a case . . . . [T]he whole point in having the 60
                 days was so that you could make a quick judgment and
                 move on to cases that deserved attention and just, you
                 know, get rid of the matters under inquiry that did not
                 deserve attention.
ENF6   ENF6
              Testimony Tr. at 26.

                 B. The SEC’s Long-Standing Policy Has Been to Preserve Certain
                    Documents Related to its Investigations

        On May 29, 1989, Gary Lynch, then the SEC’s Director of the Division of
Enforcement, issued a memorandum to all Enforcement personnel titled “Disposition of
Records Upon the Closing of Cases,” setting forth “policies and procedures for the
disposition of records at the time a case is closed.” May 29, 1989 Memorandum from
Gary Lynch to All Enforcement Personnel (the “1989 Lynch Memorandum”), attached as
Exhibit 30. The 1989 Lynch Memorandum stated:

                 After a case has been closed, the Commission has no
                 interest in permanently retaining records other than those
                 described . . . as Categories A – E. Accordingly, promptly
                 after a case is closed, the staff should either discard all
                 other documents or, upon written request, return them to
                 the party that submitted them to the Commission.

Id.

                                                   13

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




       The 1989 Lynch Memorandum then described the five A – E categories of
records that should be retained upon closing a “case”:

                         (A)    Transcripts of testimony taken in an
                 investigation and the exhibits to such testimony;

                         (B)     The Commission’s official file . . . which
                 should include the case opening form, formal orders of
                 investigation, Privacy Act accounting forms, subpoenas,
                 correspondence, Wells submissions, FOIA requests,
                 confidential treatment requests and closing
                 recommendations;

                         (C)      Other inter- or intra-agency memoranda,
                 including all notes and other records prepared by the staff
                 that the staff believes important to retain;

                         (D)     Records that have been made part of the
                 record in an injunctive or administrative proceeding;

                         (E)     Such other records that the staff believes
                 important to retain. The Commission normally does not
                 need, for its own use, records that do not fall within
                 categories A through D. However, there may be some
                 unusual cases in which the staff believes it important to
                 retain additional records.

Id. The memorandum described a sixth category, Category F, for “[a]ll other case
material that does not fall within categories A-E but must be held due to FOIA concerns.
This category was created in order to permit the Commission temporarily to store records
. . . that are subject to a FOIA request and that would otherwise not be retained.” Id. at 3.

        The retention policy for records related to investigations was repeated, with some
minor changes, in an August 20, 1993 Memorandum from William McLucas, then the
Director of the Division of Enforcement, to all Enforcement personnel. August 20, 1993
Memorandum from William R. McLucas to All Enforcement Personnel (“the 1993
McLucas Memorandum”), attached as Exhibit 31. The retention policy for records
related to investigations set forth in the 1989 Lynch Memorandum and reiterated in the
1993 McLucas Memorandum remained largely unchanged until a September 7, 2011
directive to retain all documents related to investigations, discussed in Section IV.,
below. See, e.g., 2002 Case Closing Manual, attached as Exhibit 32, at 3; 2008 Case
Closing Manual, attached as Exhibit 33, at 3.



                                                   14

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 C. Unlike its Policy with Respect to Investigations, the SEC’s
                    Longstanding Policy Prior to July 20, 2010 was to Destroy All
                    Documents Related to Closed MUIs

        As discussed below, on July 20, 2010, the SEC issued a directive to preserve
certain documents related to MUIs (the “July 20, 2010 Directive”). Prior to the issuance
of that directive, Enforcement’s policy had been to destroy all documents relating to
                                                           ENF4
MUIs that were closed without becoming investigations.          Testimony Tr. at 11. As
recently as June 2010, Enforcement’s Case Closing Manual, which has been posted on
Enforcement’s Intranet since at least 2001, included the following directive: “After you
have closed a MUI that has not become an investigation, you should dispose of any
documents obtained in connection with the MUI.” 2008 Case Closing Manual (in effect
until June 2010), attached as Exhibit 33; see also, 2001 Case Closing Manual, attached as
Exhibit 27; 2002 Case Closing Manual, attached as Exhibit 32.
        ENF4
                 who has worked in Enforcement since 1987, testified that prior to the July
20, 2010 Directive, the SEC’s “policy was that records that were obtained or generated in
a MUI were to be destroyed at closing,” and that this had been the “longstanding division
                                                          ENF4                              ENF10
policy” for as long as he had been in Enforcement.             Testimony Tr. at 8, 11-12.
ENF10
             the Division of Enforcement’s ENF10
ENF10             , testified that he understood that Enforcement’s policy prior to the July 20,
2010 Directive had been to dispose of documents in connection with a MUI when a MUI
did not become an investigation, and that this policy had been in effect “for a long time
                                               ENF10
. . . . I think it may be as old as MUIs.”             Testimony Tr. at 12-13. Jeffery Heslop,
the SEC’s Chief Operating Officer since May 2010, testified that he understood that the
practice at the SEC had been to destroy MUI documents for the 18 to 20 years prior to the
July 20, 2010 Directive. Heslop Testimony Tr. at 9, 25, 32-33.
        ENF4
               testified that when the SEC first began using MUIs in the 1980s:

                 [T]hose electronic [MUI] entries would be purged after two
                 years. . . . There were Congressional issues with how we
                 tracked – how we responded to MUIs that were reported by
                 the SROs. So a decision was subsequently made, and it
                 was in the late eighties, that we would cease purging the
                 electronic flags that were planted in that MUI system. . . .

                 [T]he implication was, even at that early date, nothing was
                 really expected to be retained in a MUI, including the
                 electronic reference, the electronic index that had been set
                 up to track them.

                 But a decision was made that it would be useful to continue
                 tracking those and not purge those electronic indicators


                                                   15

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                  after the two-year period, and it was decided to maintain
                  them indefinitely.

                  But my understanding was always that that had nothing to
                  do with the underlying – any papers that might have been
                  obtained. And that the staff would continue destroying
                  those papers.
ENF4
       Testimony Tr. at 69-70.

         The OIG did not find evidence of an improper motive behind Enforcement’s
longstanding policy of destroying documents related to closed MUIs that did not become
                                                                                         ENF4
investigations, although there was a lack of clarity as to the rationale for the policy.
testified that Enforcement’s Office of Chief Counsel was responsible for the policy. Id.
        ENF4
at 13.       testified, “I don’t know that a specific reason was presented to me. It was
just, ‘This is how we treat these records. This is how we treat these materials.’” Id. at
12. McKown testified that she did not know why it was the SEC’s policy to destroy
documents after closing a MUI, and that the policy was put into place before she became
                                                                               ENF8
the chief counsel for Enforcement in 1993. McKown Testimony Tr. at 9.                  stated
to the OIG that the MUI document destruction policy “was such an accepted procedure,
                                                  ENF8
it’s hard to think why it was set up that way.”           Interview Memorandum.
Similarly, Heslop testified that he had “no idea” why the SEC’s policy for years had been
to destroy records related to MUIs. Heslop Testimony Tr. at 40. Adam Storch, the
Managing Executive for the Division of Enforcement since 2009, testified that he did not
“have any understanding why there was that policy.” Storch Testimony Tr. at 9, 16.
         ENF8
                stated to the OIG that the policy to destroy MUI documents may have
                                                                          ENF8
been set because MUIs were not viewed as valuable enough to keep.               Interview
Memorandum. Additionally, the policy may have continued in part because of space
                                            ENF4
concerns: as noted in Section I.E. below,        testified to a concern that MUI records be
allowed to “sit” because the agency had been criticized for keeping materials on
electronic servers for too long, and that preserving MUI records would contribute to
“backlogs on things that would eventually have to be dealt with when we came to
           ENF4
closing.”       Testimony Tr. at 29-30. 5




5
    The OIG did not find reasonable grounds to believe that there had been a violation of 18 U.S.C. § 2071,
which prohibits the willful and unlawful destruction of Federal records. In order to satisfy the willfulness
requirement of the statute, an individual must have acted intentionally with knowledge that he or she was
breaching the statute. See U.S. v. Simpson, 460 F.2d 515, 518 (9th Cir. 1972); U.S. v. North, 910 F.2d 843
(“the parties are agreed that violations of 18 U.S.C. 2071(b) . . . require the unusually high mental element
of knowledge of unlawfulness.”) The OIG did not find evidence indicating that any individual at the SEC
intentionally destroyed records with the knowledge that he or she was violating the statute.

                                                     16

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                  D. In 2009 and 2010, the SEC’s SEC1    Repeatedly Raised
                     Concerns About the Disposition of MUI Records

        All Federal records 6 are required by law to be identified by an agency disposition
schedule that is approved by the National Archives and Records Administration
(“NARA”). 36 C.F.R. § 1225. That schedule must include instructions for which types
of records need to be retained permanently and which types of records, if any, may be
retained on a temporary basis. Id. The current records retention schedule for the SEC’s
Division of Enforcement states that “Investigative Case Files (also known as ‘complaint
case’ and ‘general assignment files’), including case files relating to preliminary
investigations,” 7 need to be retained for at least 25 years from the date of closure of the
investigation. See Division of Enforcement Records Retention Schedule, attached as
                              Testimony Tr. at 16, 26. 8
                      SEC1
Exhibit 34; see also

        Enforcement’s current records retention schedule was approved by NARA on
December 9, 1992. Request For Records Disposition Authority, attached as Exhibit 35;
         SEC1
see also         Testimony Tr. at 21. A memorandum accompanying NARA’s evaluation
of the SEC’s proposed records retention schedule that was approved by NARA in 1992
reflected that NARA had reviewed the 1989 Lynch Memorandum. Exhibit 35 (at 3 of
                        Arc2    Arc2
attached July 22, 1991                  Memorandum). This NARA memorandum
described the types of documents identified as Categories A through E in the 1989 Lynch
Memorandum as necessary for retention, as well as Category F, which “contains any
miscellaneous material that does not fall into the above categories but which must be kept
in the event of a FOIA request on the case.” Id. Enforcement’s records retention
schedule that was approved by NARA in December 1992 did not include any reference to
MUIs. Exhibit 34.
                                 ENF4                          SEC1     SEC1
         On May 22, 2009,       sent SEC SEC1      t               a draft amended
                                                                           ENF4     ENF4
retention schedule for submission to NARA. May 22, 2009 E-mail from                      to
SEC1    SEC1                            ENF4
                attached as Exhibit 36.       draft retention schedule included a section
titled, “Matter Under Inquiry Files – Closed” that stated:
6
    Records are defined by Federal law as:

         [A]ll books, papers, maps, photographs, machine readable materials, or other documentary
         materials, regardless of physical form or characteristics, made or received by an agency of the
         United States Government under Federal law or in connection with the transaction of public
         business and preserved or appropriate for preservation by that agency or its legitimate successor as
         evidence of the organization, functions, policies, decisions, procedures, operations, or other
         activities of the Government or because of the informational value of data in them.

44 U.S.C. § 3301.

7
    Neither “investigation” nor “preliminary investigation” is defined in this schedule. Exhibit 34. 

8
   The records retention schedule further states that, upon closing, case files for investigations found to 

meet certain criteria articulated in the schedule are to be transferred to the National Archives after 25 years.
Exhibit 34; SEC1
 Testimony Tr. at 16.
9  SEC1
           joined the SEC on SEC1             , after SEC1         of experience as an SEC1
SEC1                                                                   . SEC1 Testimony Tr. at 7-8.

                                                      17


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




                   Matters Under Inquiry (MUI) files include information
                   obtained in preliminary inquiries to determine whether to
                   open the investigation. MUIs may be held open for no
                   more than 60 days; if not closed prior to that point, MUIs
                   are automatically converted to investigations. Maintained
                   electronically, as computer records or otherwise, or in
                   paper. . . .

                   DISPOSITION: Temporary. Destroy upon closing.
     ENF4
Id.      accompanying e-mail explained, “I have added a new schedule for Matter
Under Inquiry (MUIs). These files are destroyed upon closing of the MUI unless the
MUI is converted into an investigation.” Id.
            SEC1
                 testified that he was unaware of the existence of Matters Under Inquiry
                                       on the draft amended retention schedule in 2009. 10
                                 ENF4
until he began working with
SEC1                             SEC1
        Testimony Tr. at 33.              testified that from the point in time in which he
                                                SEC3  SEC3
learned of the existence of MUIs, he and                     the SEC’s SEC3             ,
                                                            ENF4
consistently and repeatedly expressed the position to            that any documents in MUI
files that fit any of the Category A through E descriptions in the 1993 McLucas
Memorandum were “records,” and that since such records were not scheduled with
NARA, they needed to be treated as permanent until scheduled. Id. at 34-37, 48-50, 52.
SEC1
        testified that any destruction of such MUI records would have been inconsistent
                              ENF4
with the guidance he gave            in 2009. Id. at 48-50.
                                        SEC1                                   SEC3
        Multiple e-mails support           testimony that he and       repeatedly and
                     ENF4
consistently advised      and Enforcement that MUI records were unscheduled and
                                      SEC3                       ENF4
needed to be retained, accordingly.        wrote in an e-mail to      and others on March
24, 2010, “The proposed policy (retention schedule for investigative files) is pending
approval by [NARA]. Once approved by NARA, the SEC will have the authority to
destroy MUIs which were never converted into investigations. Until we received [sic]
this approval, the MUIs must not be destroyed.” 11 March 24, 2010 E-mail from
                                                                                  SEC3

SEC3
      to PII                  , attached as Exhibit 37.


10   SEC1
              supervisor Barry Walters, Director of the Office of FOIA, Records Management, and
Security, testified that “at some point in 2010 it was brought to my attention that if a MUI was closed, that
apparently the enforcement division was destroying some or all of those MUI records,” and that it was “the
position of the enforcement division, that this had been a longstanding practice of theirs, to dispose of these
records in that way.” Walters Testimony Tr. at 12-13.
11
     Enforcement sent NARA its proposed schedule in June 2009. See Exhibit 41. Approximately one year
later, ENF4 expressed frustration that NARA had not responded to that proposed schedule. Id. ENF4 stated in
a June 17, 2010 e-mail to SEC1      “[W]hen we sent our revised retention schedule to NARA (which was
more than a year ago), I assumed we would receive a prompt reply. I understand that this may in fact take
several more years.” Id.

                                                      18

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


                         ENF4
        However, as       acknowledged in his OIG testimony, Enforcement did not
                                                                              SEC3
change its policy or practice of destroying MUI documents in response to            e-mail
            ENF4
direction.        Testimony Tr. at 17-18; see also, Exhibit 33, 2008 Case Closing Manual
                                            ENF4              SEC3
(in effect until June 2010), at 1. In fact,      responded to        e-mail that Enforcement
“should continue to act as [it had] in the past with respect to these records.” See Exhibit
                             ENF4
37. In his e-mail response,        stated:

                  I think we should discuss this issue. In the past, MUIs were
                  treated as an abbreviated form of investigation; if closed
                  without a formal investigation being opened, it was
                  assumed that none of the documents fell into Categories
                  A-E of the McLucas memo and thus could be destroyed.
                  The amendment to the retention schedule was intended to
                  make that treatment explicit, but not to suggest that MUI
                  records have to [sic] retained in the absence of a line item
                  in the schedule. Until the retention schedule is approved, I
                  believe we should continue to act as we have in the past
                  with respect to these records.
                                ENF4
Id. 12 (emphasis added).      testified that he did not recall whether he actually followed
                                                       ENF4
up his e-mail with a discussion regarding the issue.        Testimony Tr. at 17.
                                SEC1
        On June 1, 2010,           reiterated that, “If MUIs are unscheduled federal records
they need to [be] maintained and treated as permanent until an approved records schedule
is enacted. This treatment of MUIs is procedurally correct regardless of how they were
                                                   SEC1      SEC1
previously treated.” June 1, 2010 E-mail from                         to Darcy Flynn, attached as
                                                                 ENF4              ENF4
Exhibit 38. Flynn forwarded this e-mail later that day to              and wrote, “     can you
please see the email string below and advise on how to proceed. My understanding from
SEC1   SEC1
      [         s email is that, absent some other policy, we’ll have to retain these docs.”
                                                        ENF4
Id. Two days later, Flynn wrote another e-mail to              and others, stating:
12
     The OIG investigation found that there may have been a disconnect between the Office of Chief
Counsel’s assumption that Category A-E records were not created in the course of MUIs and the
investigative staff’s actual conduct of MUIs. As discussed below in Section II, the OIG found that it was
not unusual for such records to be created during the conduct of MUIs. In contrast to the actual practice,
ENF4
      testified that, “My sense was always that we were not generating documents that had to be retained in
the MUIs.” ENF4 Testimony Tr. at 13. SEC2 SEC2              the SEC2                          for Enforcement,
similarly testified that “the viewpoint, at least from ENF4 ENF4 and all of the information I was told was that
you would not have category A through E created in a MUI.” SEC2              Testimony Tr. at 33. Storch
testified that ENF4 had informed him that it was “extremely rare” for material falling into categories A
though E of the 1993 McLucas Memorandum to be created in the course of a MUI. Storch Testimony Tr.
at 47. McKown testified that it was communicated to the Enforcement staff that MUIs were “a quick look
and that you were to open it up as an investigation if you were going to be doing anything significant.”
McKown Testimony Tr. at 23. McKown testified that “you could call someone and talk with them, but the
intention was of course that you not do anything substantive while you were in the MUI phase.” McKown
Testimony Tr. at 9. It is clear, however, from the OIG’s review of particular MUIs that were closed
without becoming investigations, that it was not unusual for records falling into Categories A through E of
the 1993 McLucas Memorandum to be created in the course of MUIs, as discussed in Section II.

                                                      19


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




                  [W]e need guidance on this asap as the Records Disposition
                  group is getting bottle necked with these MUI related docs.
                  SEC1   SEC1
                        [         s email appears to put us on notice that our
                  current practice of discarding these MUI related docs may
                  be unauthorized. We need either clear authorization to
                  discard them or updated Enforcenet guidance on their
                  retention.
                                                   SEC1      SEC1
June 3, 2010 E-mail from Darcy Flynn to                               attached as Exhibit 39. On June
         ENF4
7, 2010,      wrote in an e-mail to Flynn:

                  We really do need to discuss. . . . [T]he MUI records can’t
                  be allowed to sit. The goal of adding them to the revised
                  retention schedule was [to] cut off any question that we can
                  destroy them when they are no longer needed. But it may
                  be necessary to pull back the schedule and redefine them as
                  investigatory records to be disposed of under the McLucas
                  categories.
                                ENF4       ENF4                                                    ENF4
June 7, 2010 E-mail from                  to Darcy Flynn, attached as Exhibit 40.
testified that he wrote that MUI records could not be allowed to “sit” because the agency
had been criticized for keeping materials on electronic servers for too long, and that
preserving MUI records would contribute to “backlogs on things that would eventually
                                                   ENF4
have to be dealt with when we came to closing.”         Testimony Tr. at 29-30. Flynn
               ENF4                     ENF4
responded to        via e-mail, “Thanks       I agree the sooner the better. One point:
under the McLucas categories we would also keep any correspondence under Category B
and internal memos under Category C, correct?” Exhibit 40. The OIG did not find that
ENF4
      responded to Flynn’s e-mail regarding the need to retain Category B correspondence
and Category C memoranda related to closed MUI files.

                  E. On June 16, 2010, the SEC’s SEC1                     Directed Enforcement to
                     Preserve its MUI Records
                                SEC1
        On June 16, 2010,          sent a memorandum titled, “Records Management
                       SEC2
Guidance” to Storch,              McKown, Walters, and others, writing in his
accompanying e-mail that this guidance was being sent “in response to multiple
                                         SEC1   SEC1
inquiries.” June 16, 2010 E-mail from                   to Adam Storch, attached as Exhibit
       SEC1
41. 13        testified that he wrote and circulated this memorandum because he had not
13
    McKown testified that, although she was aware of there being issues concerning the retention of MUI
documents, she was preparing for her departure from the agency in July 2010 and did not become involved
with any such issues. McKown Testimony Tr. at 7, 16-20. ENF4 and ENF10         each testified that they did not
have any discussions with McKown concerning the treatment of records relating to MUIs. ENF4 Testimony
Tr. at 24; Walden Testimony Tr. at 25. Storch also testified that he did not recall McKown being very
involved in issuing guidance concerning MUI records in June or July of 2010. Storch Testimony Tr. at 36.

                                                      20


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


                                          ENF4
been getting direct responses from      concerning his previous e-mails on the issue of
               SEC1
MUI records.           Testimony Tr. at 54.
            SEC1
                  June 16, 2010 Records Management Guidance stated: “MUIs are federal
records. MUIs are currently unscheduled. Unscheduled federal records must be treated
as permanent until they are scheduled (Authority 44 U.S.C. section 3102 and 36 CFR
1225.14.) Therefore, to avoid the unauthorized destruction of federal records the
Division of Enforcement must maintain MUIs until further notice.” Exhibit 41
                        SEC1
(emphasis in original).         testified that he still had not received clarification from
Enforcement as to what MUIs were and what records they generated, so he thought it was
safer to issue broad guidance to preserve all MUI documents until he received
clarification from Enforcement on this issue. 14
                                                  SEC1
                                                           Testimony Tr. at 49, 60-61.
            ENF4                                      SEC1
                wrote in a responding e-mail to              and Storch, “Our current practice is
not to retain these records . . . . To be clear, it isn’t illegal to keep records too long – but
there are financial costs to be considered, as well as the risk of creating confusion for
                                          ENF4                  SEC2
staff.” Exhibit 41. Storch forwarded              e-mail to                 who wrote in a
                                                  ENF4     ENF4
responding e-mail, “I completely agree with              [         but the problem we get into is
that the current records policy is very vague and does not openly address the MUI issues.
. . . . I have told Darcy [Flynn] to be on the conservative side and retain the A-F
                                        SEC2
documents for the MUIs . . . .” Id.                 testified that she was “very surprised that
the records retention schedule was [only] the one page,” noting that the records retention
                                                                              SEC2
schedule for the SEC2                                                 , where          worked prior
                                                                     SEC2
to her employment at the SEC, was “just more explicit.”                        Testimony Tr. at 25.
Walters testified that Enforcement was concerned about the amount of space and volume
                                                              SEC1
of documents that would need to be preserved under                        guidance. Walters
Testimony Tr. at 15-16.
                                ENF4                           SEC1
      On June 16, 2010,                wrote in response to               directive to maintain MUI
documents:

                   In my view, we should make no changes in our current
                   practices with respect to . . . MUI files. . . . Our current
                   retention schedule covers “case files relating to preliminary
                   investigations.” In the past, when a MUI was closed, any
                   records that would fall within Categories A-E (and this
                   meant the occasional investigative testimony transcript)
                   were not to be destroyed upon closing, but were to be sent
                   to storage in the same manner as other investigatory
                   material that had to be retained under our schedule.
                   However, current policy is to open a formal investigation

14   SEC1
           testified that “a lot of my conversations in trying to schedule with ENF4 ENF4 were not as
forthcoming on his side as I hoped would be in trying to schedule records for an agency during that
period.” SEC1 Testimony Tr. at 37-39.

                                                     21

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 before taking any testimony, seeking a formal order, or
                 generating other documents that would require retention
                 under the McLucas memo. Adding MUIs to the draft
                 retention schedule was intended only to make the status of
                 these investigations clearer. Until the new schedule is
                 adopted, MUIs should be deemed still to be within the
                 scope of the existing schedule, and any documents not
                 required to be held under Categories A-E should be
                 destroyed upon closing.
                                ENF4 
     ENF4 
      SEC1   SEC1
June 16, 2010 E-mail from                           to 
             attached as Exhibit 42.
                               ENF4
        Flynn testified that       statement in the above e-mail that when a MUI was
closed, any records that fell within Categories A-E were not destroyed upon closing but
rather preserved in the same manner as similar records from investigations, was false.
                                                                                   ENF4
Flynn Testimony Tr. at 98-102. The testimony of other witnesses contradicted
statement in that June 16, 2010 e-mail as well. Storch testified, “As I look at the case
closing guidance [prior to July 2010] . . . [t]here’s no carve-outs for anything. It basically
– it doesn’t provide that caveat to say if it – if by chance you create something A to E,
you should retain it just like you would do if it was an investigation.” Storch Testimony
Tr. at 24. McKown testified that Enforcement lawyers were not expected to keep MUI
documents once a MUI was closed and not converted into an investigation, and that she
was not aware of any effort that was taken by Enforcement lawyers to keep certain MUI
documents upon closing the MUI. McKown Testimony Tr. at 14, 23.

        On June 18, 2010, Storch wrote to Walters and others in an e-mail:

                 While we are eager to reach consensus, we hope to avoid
                 the confusion of changing our long standing policy, only to
                 revisit it in a week or so when we meet on the 28th.
                 Therefore, I think it more prudent, and plan to continue
                 under the current policy for the brief interim.
                                                                               SEC1
Exhibit 42. Storch testified that “I needed a bit of time to react to [   directive]
and to create an adequate communication to all staff.” Storch Testimony Tr. at 21.

        Walters responded to Storch’s e-mail on June 19, 2010:

                 Clearly there are some different opinions here, but I think
                 the one that matters most at this point is the official with
                 the responsibility for setting policies and procedures for the
                                                            SEC1   SEC1
                 agency’s records management program,                        For
                 now, his June 16th memo should be treated as directive in
                 nature. The existing authority to destroy the records in
                 question is now suspended.

                                                      22

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




Exhibit 42. Walters testified with regard to his e-mail, “[Y]ou’re trying to at least stop
the train from going down the track when passengers are hanging off the sides.” Walters
                        ENF4
Testimony Tr. at 20.         wrote in a June 21, 2010 e-mail to Storch and others, “At this
point, it looks like the safest course for Enforcement staff is to retain MUI records until”
               SEC1
meeting with           on June 28, 2010. Exhibit 42.

        However, according to Storch, Heslop overruled Walters at Storch’s request.
Storch Testimony Tr. at 31. Storch testified, “At this point . . . I thought I needed to get
Barry [Walters’] boss [Heslop] involved.” Id. Storch testified that Heslop agreed with
Storch that, although Enforcement guidance needed to go out, it needed to be carefully
crafted, and that “Heslop gave me basically the green light to hold off until we had
crafted a message that all of us were comfortable with.” Id. at 32-33. Contemporaneous
                                                                               SEC1   15
e-mails corroborate Storch’s testimony that Heslop overruled Walters and
                                                         SEC1
        On June 21, 2010, Walters forwarded              Records Management Guidance to
Heslop. June 21, 2010 E-mail from Barry Walters to Jeffery Heslop, attached as Exhibit
43. Walters described in an accompanying e-mail to Heslop the disagreements between
SEC1
        and the Enforcement staff on this issue, including Walters’ instruction to
                   SEC1
Enforcement that            guidance “should be treated as directive in nature and that the
existing authority to destroy the records in question is now suspended.” Id.

        On June 22, 2010, Storch wrote in an e-mail to Heslop, “Jeff – thanks for your
                                                    SEC1    SEC1
assistance on this. As discussed, we will not issue                  updated guidance to
enforcement staff until we are able to discuss in more detail with Barry [Walters] and
consider alternative approaches.” June 22, 2010 E-mail from Adam Storch to Jeffery
                                                       ENF4
Heslop, attached as Exhibit 44. Storch then wrote to          and others, “Jeff Heslop, the
new COO, advised that I should NOT send out the updated guidance to ENF staff for
now . . . .” Id.
                                                      ENF4        SEC1
        On June 28, 2010, Storch, Walters,        and          met concerning the
disposition of MUI records. June 28, 2010 E-mail from Adam Storch to Joan McKown,
attached as Exhibit 45; June 30, 2010 E-mail from Barry Walters to Adam Storch,
                          SEC1                         SEC1
attached as Exhibit 46;          Testimony Tr. at 65.         testified that, at this meeting,
Enforcement expressed “significant consternation that I had issued guidance that was
                                                                                       SEC1
going to affect all of their work processes and that they were hesitant to do that.”
Testimony Tr. at 64-69.
                                                       SEC1                          ENF4        SEC2
       After the meeting with Walters and        Storch e-mailed     and
and explained the need for a follow-up meeting among certain Enforcement staff, “Just to

15
     Heslop testified that he did not recall explicitly telling Storch not to send out SEC1    update guidance
to the Enforcement staff, but rather that: “I said, basically, as I would with any other matter, you guys go
get your heads together and figure this out. . . . I certainly don’t recall overruling Barry Walter’s directive.”
Heslop Testimony Tr. at 17-18.

                                                       23

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



bring everyone up to date – it looks like we’re going to have to maintain docs associated
with MUIs until the records schedule is approved by NARA. This meeting is to briefly
discuss the communications we should send out, and the associated guidance/training that
we should consider rolling out with this interim policy.” Exhibit 45; see also Exhibit 46.
However, as discussed below, the contemplated guidance was not sent to Enforcement
staff until three weeks later.

                  F.		 In Late June 2010, a SEC Staff Attorney Contacted NARA
                       Concerning the Destruction of MUI Records
                                               SEC1
        Flynn testified that, shortly after        June 16, 2010 guidance had been issued
concerning the preservation of MUI records, Flynn had a conversation with an individual
at NARA in which he informed the individual at NARA that the SEC had been
destroying records relating to MUIs for years, that there was a disagreement with the
                  SEC1
SEC’s SEC1                 as to what records needed to be preserved relating to MUIs, and
                                                                           SEC1
during which Flynn requested from NARA a “temporary reprieve” from
directive to preserve all MUI records. Flynn Testimony at 113-115. 16 Flynn testified that
the individual at NARA told him that NARA could not grant a temporary reprieve from
SEC1
          directive. Id. at 114.
                              SEC1
         On July 19, 2010,             wrote in an e-mail to Walters:

                  . . . I met with National Archives staff on Friday, July 16 to
                  discuss various SEC records topics. Toward the end of the
                  meeting they notified me that Darcy Flynn had called them
                  in June and during that conversation he asserted that the
                  SEC’s Division of Enforcement had been destroying MUI’s
                  for 17 years. I asked if that was exactly what he said and
                  they stated that Darcy queried about treatment of the
                  records and was told that since the records are unscheduled
                  they must be treated as permanent until scheduled and in
                  response he clearly responded something to the effect that
                  we have been destroying these for years. Due to the nature
                  of this call they indicated that it was their responsibility to
                  send a notification of unauthorized destruction letter to
                  SEC for our response . . . .

                  As a result of this phone call, within the next couple of
                  weeks the National Archives will be sending a formal letter
                  notifying the SEC in writing that records have allegedly
                  been destroyed and requesting an agency response within
                  30 days of receipt of that letter.


16
     Flynn testified that he did not know with whom he had spoken at NARA. Flynn Testimony Tr. at 114.

                                                      24


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                     Due to the issues concerning MUIs brought to their
                     attention, the National Archives informed me that it was
                     unlikely that MUIs would be a candidate for fast track
                     scheduling. Since, these records were potentially destroyed
                     without authorization their profile has been elevated
                     because the National Archives will have to report
                     concerning resolution of the issue. Therefore, the National
                     Archives would have to be extremely diligent in reviewing
                     the records during the scheduling process, i.e. meeting with
                     program officers and other staff creating and using the
                     records, and viewing multiple MUIs as samples.
                                     SEC1   SEC1
July 19, 2010 E-mail from                  to Barry Walters, attached as Exhibit 47.
Walters testified that, upon learning that Flynn had notified NARA that the SEC had been
destroying documents related to MUIs for seventeen years:

                     [M]y initial thought was, he was probably right. That from
                     the time of the [1993] McLucas Memo up until – you
                     know, I came on board in October 2009, and this started
                     bubbling up in June of 2010. That they had been
                     destroying these MUIs for 17 years with their position that
                     it wasn’t a problem for them to do that. . . . [B]ased on
                     everything I knew that transpired during this period, my
                     understanding was that had been their standard practice.

Walters Testimony Tr. at 33, 42-43.
                                                   SEC1
       Walters immediately forwarded             e-mail to Heslop and Storch. Exhibit
47. Storch’s e-mail reaction was, “After our conversation on 6-24, we talked with Darcy
[Flynn] that day and instructed him that he should no longer have direct conversations
with NARA.” 17 Id.




17     SEC2
                  testified regarding her reaction to learning about Flynn’s contact with NARA as follows:

                     I said [to Flynn], “So how come you didn’t raise the issue, you know,
                     give us a heads up?” And I think SEC1 SEC1 was a little miffed at the
                     fact – because SEC1 SEC1 is our main liaison with NARA – why we
                     didn’t consult with SEC1 and why —well, actually I know SEC1 SEC1
                     was miffed. . . . I said [to Flynn], “You know, next time you need to
                     give SEC1 SEC1 the heads-up before you actually reach out and – so
                     that he’s aware of this because he prefers to be the liaison with
                     NARA.”
SEC2
              Testimony Tr. at 45.

                                                          25
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 G. On July 20, 2010, Enforcement Sent Division-Wide Guidance to
                    Preserve MUI Records
                                                  SEC1
       On July 20, 2010, one month after         directed Enforcement to retain MUI
documents and one day after Storch and Heslop learned that Flynn had told NARA that
the SEC had been destroying records relating to MUIs for 17 years, Enforcement sent the
following guidance to all Enforcement staff regarding the preservation of MUI
documents:

                 The SEC SEC1         has recently advised the Division of
                 Enforcement that certain records generated in a [MUI] are
                 required to be retained due to limitations with our current
                 records policy. As a result, effective immediately, when
                 closing a MUI that does not lead to an investigation,
                 documents must be processed consistent with the
                 processing of documents for closed investigations, with one
                 exception: until ENF’s pending revised records retention
                 schedule receives approval, retained MUI documents
                 cannot be sent to the Federal Records Centers and, as a
                 result, should be kept at Iron Mountain. . . .

                 Currently, MUIs do not generate several of the . . .
                 documents often generated in investigations, including
                 Category A transcripts and exhibits, Category B formal
                 orders and subpoenas, Category D litigation documents,
                 etc. As a result, closed MUIs generally will require the
                 retention of fewer documents than closed investigations.
                 The types of documents to preserve for MUIs will typically
                 be:

                 Category B: correspondence, both paper and email.

                 Category C: inter or intra agency memoranda, including
                 memos to the file.

                 Category E: documents, if any, that support the conclusion
                 not to open an investigation.

                 Category F: documents not already retained but responsive
                 to a pending FOIA request.

July 20, 2010 Enforcement Records Management and Disposition E-mail, attached as
Exhibit 48.



                                                   26

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



         II.		    The OIG Found that the SEC’s Enforcement Staff Destroyed
                  Documents Related to Closed MUIs that Should Have Been Preserved
                  as Federal Records

         There is disagreement among the SEC staff as to whether MUIs are “preliminary
                                                                                    ENF4
investigations” as that term is used in Enforcement’s records retention schedule.
testified that it was his “view that [MUIs] were covered by the existing retention schedule
as preliminary inquiries, as preliminary investigations.” 18
                                                             ENF4
                                                                  Testimony Tr. at 26.
SEC1
           view is that MUIs are not “preliminary investigations” as that term is used in
                                             SEC1
Enforcement’s records retention schedule.           Testimony Tr. at 100-101; see also
June 16, 2010 Records Management Guidance to Enforcement, attached as Exhibit 41
(“MUIs are currently unscheduled.”) 19

       Whether or not MUIs are referenced as “preliminary investigations” on the SEC’s
records retention schedule, documents created during the conduct of a MUI falling into
Categories A through E of the 1993 McLucas Memorandum should have been preserved.
ENF4
     conceded during his OIG testimony that Category A-E records created during the
                                                  ENF4
conduct of a MUI should have been preserved.           Testimony Tr. at 48, 82. As
                  ENF4
discussed above,       had assumed incorrectly for years that such records were not
                                                  ENF4
created during the conduct of MUIs. However,           acknowledged during his OIG
testimony that, “to the extent that there was an issue about correspondence [being
                                                                                 ENF4
generated in the course of a MUI], I admit I had never focused on that before.”
Testimony Tr. at 34.
                      SEC1
        Similarly,       testified that if MUIs were not “preliminary investigations,” as
he believed, then any Category A-E records created during the conduct of a MUI were
unscheduled and should have been preserved accordingly. 20
                                                              SEC1
                                                                    Testimony Tr. at
                   SEC1
101-103; see also,        Interview Memorandum at 2. In fact, the only practical

18
     Flynn’s attorney has also made the argument that MUIs and preliminary investigations are
pseudonymous, citing the use of the phrase “preliminary investigation” in contexts applicable to MUIs,
including the 2009 Congressional Testimony by a former Enforcement Director. August 19, 2011 Letter
from Gary Aguirre to Paul Wester, attached as Exhibit 49, at 2-5.
19
     The Division of Enforcement stated, in a September 14, 2011 letter to Senator Charles Grassley, that “it
is difficult to conclude with certainty the intended meaning of the 1992 reference to preliminary
investigations,” but that various historical SEC references to the term “preliminary investigation” suggest
that it referred to informal investigations (i.e., investigations without a formal order of investigation), not
MUIs. September 14, 2011 Letter from Robert Khuzami to Charles Grassley, attached as Exhibit 50, at 7.
These include a reference in the Enforcement records retention schedule to “preliminary investigations” in
1975, which appeared to predate the creation of MUIs (in 1981, according to ENF4 testimony). Id.; see
also, August 11, 1975 Request For Authority to Dispose of Records, attached as Exhibit 51; ENF4
Testimony Tr. at 69.
20   SEC1
              stated to the OIG that he originally had advised Enforcement in June 2010 that all MUI
documents be retained because he had determined that MUI documents were not scheduled, and was
seeking more information as to what a MUI was so that he could determine which MUI documents were
records that needed to be retained. See SEC1 Interview Memorandum. He stated upon this review, he
determined that MUI documents falling into Categories A through E of the 1993 McLucas Memorandum
were considered records that need to retained. Id.

                                                      27

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



difference between the two views of whether MUIs are “preliminary investigations” is
the length of time that the records must be preserved. As NARA explained to the OIG in
an August 31, 2011 letter:

                 NARA concluded that MUI records were unscheduled 

                 based on the information initially provided to us by Mr. 

                 Darcy Flynn when he met with our staff in 2010 . . . .



                 However, based on the information provided in [the OIG’s]


                 letter, as well as the August 19, 2011 letter from Mr. 

                 Flynn’s attorney, NARA recognizes that MUI records


                 could well be synonymous with “preliminary investigation”


                 records under [the current Enforcement schedule]. NARA


                 would need to conduct a more detailed appraisal to reach a 

                 conclusion as to whether MUI records are equivalent to 

                 preliminary investigation records.


                 ...


                 If MUI records are scheduled under [the current


                 Enforcement schedule], then their disposition would be 25 

                 years, per disposition 3 of the item “Investigative Case 

                 Files – Closed” (which includes “files relating to


                 preliminary investigations”), and any prior destruction 

                 would be unauthorized to the same extent as if they were


                 unscheduled.



                 If, on the other hand, MUI records are unscheduled, they


                 must be deemed de facto permanent records of the SEC, 

                 and cannot be deleted or otherwise destroyed as temporary


                 records unless and until an approved SF-115 is signed by


                 the Archivist of the United States after provision for notice


                 in the Federal Register. . . .



                 [T]he SEC is obligated to retain the records described in 

                 Categories A-E [of the 1993 McLucas Memorandum], 

                 whether the records are unscheduled or covered by a 25 

                 year disposition . . . . 


August 31, 2011 Letter from Paul Wester to H. David Kotz, attached as Exhibit 52.

       According to Enforcement, between October 1, 1992, and July 20, 2010,
Enforcement opened 23,289 MUIs. MUI Measures Chart, attached as Exhibit 53. Of
those 23,289 MUIs, 12,821 either became an investigation or merged with another



                                                   28


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



already-open MUI or investigation. Id. The remaining 10,468 MUIs were closed without
becoming an investigation or another MUI. 21 Id.

       In light of the facts that (1) it was Enforcement’s longstanding written guidance to
“dispose of any documents obtained in connection with” a MUI upon closure and (2) it
was not a rare occurrence for records falling into Categories A through E of the 1993
McLucas Memorandum to be created in the course of a MUI, it is certain that records
were destroyed in connection with the over 10,000 MUIS that were closed without
becoming investigations. Because of the scarcity of information related to these MUIs,
faded memories, and staff turnover, it is impossible to determine how many MUI records
were destroyed during this time period.

         The OIG investigation, has identified, however, several specific instances in
which MUI records were destroyed in accordance with Enforcement’s pre-July-2010
guidance. In fact, a few minutes after the July 20, 2010 MUI guidance was sent to the
                                  ENF6   ENF6
Enforcement Division staff,                      an Enforcement staff attorney, sent an e-mail to
SEC3
        stating: “I received approval to close a MUI last week and I shredded the
documents and deleted e-mails yesterday (Monday). Is that a problem?” See Exhibit 48.
This MUI, titled, In the Matter of Heritage Investment Capital, MHO-11418, was
initiated by a referral from the Depository Trust & Clearing Corporation (“DTCC”)
concerning a potentially fraudulent bond offering by Heritage Investment Capital
            ENF6
(“HIC”).            Testimony Tr. at 8; HUB Closing Narrative for MHO-11418, attached as
Exhibit 54 at 1. 22
                       ENF6
                              testified that, in the course of this MUI, the Enforcement staff
                                        ENF6
interviewed several individuals.               Testimony Tr. at 9; see also Exhibit 54 at 2.
ENF6
       prepared a memorandum of these interviews which she e-mailed to her supervisor
                                                                              ENF6  ENF6
as part of a closing recommendation. June 16, 2010 E-mail from                              to PII
                                       ENF6                                 ENF6
PII     , attached as Exhibit 55.             Testimony Tr. at 10, 12.             testified that the
staff also requested a copy of the HIC bond itself, as well as amendments to the bond,
                                                                                          ENF6
from DTCC, and that DTCC then e-mailed the bond and its amendments to                              Id. at
          ENF6                                              ENF6
10, 25.           testified that upon closing the MUI,              shredded the bond and the
amendments to the bond, and deleted the e-mail correspondence from DTCC to which the
bond and amendments were attached. Id. at 13-15, 25. The staff attorney testified that
she understood such correspondence to be a record falling under Category B of the 1993
                                                        ENF6
McLucas Memorandum. Id. at 25; Exhibit 31.                       testified that she also deleted
                                                                                      ENF6
several e-mails corresponding with individuals interviewed by the staff.                       Testimony
             ENF6
Tr. at 15.          testified that she destroyed these documents in accordance with the
policy on the Enforcement intranet system at that time. Id. 23

21
    The most frequent reasons given in the electronic case-tracking database for closure of MUIs that did
not become investigations are: (1) inappropriate for Enforcement action; (2) closed due to “Resource
Limits;” or (3) referred to a Federal, state, or local agency or self-regulatory organization. See Exhibit 53.
22
    According to the written closing narrative for this MUI, the MUI was closed because “it appears that no
U.S. investors were harmed and it appears that the Offering memorandum was never circulated to U.S.
investors.” Exhibit 54 at 1; see also ENF6 Testimony Tr. at 12-13.
23 ENF6
          testified that she did not destroy her summary of witness interviews for this MUI, nor did she
delete the initial referral from DTCC. Id. at 14-15.

                                                     29

Thi~ dowm ent is subje(t to the provi~ions of the Prifaty Att of 1974, :md may require redattinn before
disclosure to third parties. No redaction has been perform ed by the Office of Inspector Ge nera l.
Recipients of this repo rt should not disseminate o r cop~' it without the In spector Ge neral's approval.




         On Jul y 21,                                                    by writi ng:

                  Thank you fo r the information. Please follow the guidance
                  as issued in the Adm ini strative Notifi cation for all future
                  M Uls or any that you may have open. We are currentl y
                  analyzing any issues related to previous treatment ofMU ls.
                  If we have additional question s we will contact you as they
                  anse .

Jul y 21 , 20 I 0 E·mail                                          as Exhibit
testifi ed that if she had been informed at               there was a problem,
have contacted [an indi vidual at OTCC] again to have him send the bond back to me and
try to recreate the documents," but that because nobody at the SEC informed her that her
               of documents was a problem , she did not seek to retrieve these documents.
         f estim ony Tr. at 18-1 9.

         The OlG investigation has also found other instances of MU I record destruction.
The OIG requested from the SEC's Office of Records Management SelVices any records
pertaini ng to fiftee n particular MUls that Flynn referenced in hi_atiI     ns I anning in
time from 1993 through 2009. September 6, 20 11 E-mai l from
attached as Exhibit 57. The Office of Record s Management SelVices responded that it
has no record of ever receiving the files for these MUIs, and that " despite an extensive
search of our holdi ngs and finding aids ... we cannot locate the material .... Since the
items are currently unavai labl e we cannot produce th e records you have requested .     "
Id

         In additi on, the OIG reviewed the SEC's electronic database entries in NR SI for
these MUIs, and intelViewed SEC staff that had been assigned to these MU Is, in an effort
to determine whether records had been created and whether they had been destroyed in
connecti on with these MUls . As a result of this review, the OIG has found several other
in stances in w hi ch records fallin g into Categories A through E were created and, in some
of these instances, subsequentl y destroyed.

         For example, the electronic database for Lehman Brothers Holdings, MN Y· 07 13,
indicated that the MU I was opened in March 4, 2002, and cl osed on Jul y 11 , 2002, that
the MU I was opened because the SEC received an onymous correspondence on the
letterhead of Lehman Brothers' auditors, Ernst and Young, and that the staff obtained
vol untary docum ent production from Lehman Brothers. NR SI and HUB Enforcement
Detail , MNY· 070J3 , attached as Ex hi bit 58. Records created in the course of thi s MU I
included the original complaint on Ern st and Young letterhead, correspondence from the
SEC requesti ng documents from Lehman Brothers, and cOITe,;pclnden,ce,
            'oll, er, ' document producti on. August 31 , 20 II E·mail 

              aWlCh"das Exhibit 59. 



                                                     JO
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



        For this Lehman Brothers Holdings MUI, the OIG investigation found that
records falling into Category A through E of the 1993 McLucas Memorandum were
subsequently destroyed pursuant to Enforcement guidance at that time. The staff attorney
assigned to this MUI stated to the OIG that, although he had no print documents for this
MUI and would have discarded the documents upon closure in accordance with
Enforcement policy at that time, he was able to access electronic records for the MUI on
                                             ENF2
the SEC’s shared “J-Drive” for this matter.              Interview Memorandum.
However, although some records from this MUI were preserved on the J-Drive, such as
draft correspondence from the SEC requesting documents and an intraoffice
memorandum, other records, such as: (1) the original complaint on Ernst and Young
letterhead; (2) the final document request sent by the SEC to Lehman Brothers; and (3)
the correspondence that would have accompanied Lehman Brothers’ documents
production (both of which would be considered Category B correspondence), were
unable to be located, on the J-Drive or elsewhere. See Exhibit 59.

        In other instances, the Enforcement staff appeared to have retained all records
generated in connection with a MUI, in spite of the Enforcement guidance prior to July
20, 2010, to destroy all documents upon closing MUIs. For example, all of the records
generated in connection with MNY-08145, AIG Insider Trading, including a document
request, document production cover letter, and correspondence from the Department of
Labor, appear to have been preserved by the staff. NRSI and HUB Enforcement Detail,
                                       ENF7
MNY-08145, attached as Exhibit 60;          Interview Memorandum; see also Dicke
Interview Memorandum; NRSI Enforcement Detail, MSF-03174, attached as Exhibit 61
(for MSF-03174, Morgan Stanley, the only apparent record generated for this MUI,
                                            ENF7
complaint correspondence, was preserved);          Interview Memorandum; NRSI and
HUB Enforcement Detail, MNY-08198, attached as Exhibit 62 (MNY-08198, Goldman
Sachs, Trading in AIG CDS, was opened due to a tip via correspondence; this
correspondence, and correspondence related to documents produced by Goldman Sachs,
was retained by staff).

        These examples of record creation during MUIs reflect a not uncommon practice
by Enforcement staff to request documents from third parties in the course of a MUI.
The staff attorney in the Enforcement Division who performed work on the Heritage
Investment Capital MUI, described above, testified that she did not have an
understanding that the staff was prohibited from requesting documents or corresponding
with individuals or entities in connection with a MUI, and that “I’ve definitely sent out
paper correspondence in connection with MUIs that I ended up closing and received
interagency and intra-agency memoranda, for instance, from [Financial Industry
Regulatory Authority] or from [Chicago Board Options Exchange] or that kind of thing.”
ENF6
      Testimony Tr. at 28.

        For other of these MUIs, the OIG investigation found that it was unlikely that
Category A through E records were created in connection with the MUI. For example,
the electronic database record for Citigroup Related Party Disclosures, MHO-10176,
indicated that it was opened on March 3, 2005, as a result of an article in news media,

                                                   31


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



and was closed on April 26, 2005. NRSI Enforcement Detail, MHO-10176, attached as
Exhibit 63. The staff attorney assigned to this MUI stated to the OIG that the work done
in this matter solely consisted of reviews of news articles and public filings, that no
documents were requested, and that no interviews were conducted in the course of this
        ENF3
MUI.              Interview Memorandum; see also NRSI and HUB Enforcement Detail,
                                        ENF1
MHO-10760, attached as Exhibit 64;              Interview Memorandum (no records
created in the course of MHO-10760 MUI, Bank of America, NA).

        There were also MUIs in which, due to a lack of records, staff turnover, and/or
faded memories, the OIG investigation was unable to determine whether records had
been generated or destroyed in the course of the MUI. While there remain electronic
records in the SEC’s NRSI and HUB databases for these MUIs, in some of the MUIs, the
information in the electronic databases consisted of only limited information. For
example, in Deutsche Asset Management, MHO-09945, 24 the SEC’s electronic database
only indicated that the MUI was opened on April 13, 2004, closed on May 20, 2004, for
being “inappropriate for Enforcement action,” and concerned a possible “unauthorized
transaction.” NRSI Enforcement Detail, MHO-09945, attached as Exhibit 65. The staff
attorney assigned to the MUI has since left the Commission. The branch chief assigned
to the matter stated to the OIG that he was unable to locate any electronic or print records
for the MUI, and was unable to recall information about the matter sufficient to
                                                                    ENF5
determine whether records had been created during the MUI. See               Interview
Memorandum. The Office of Records Management Services was unable to locate any
records in connection with this MUI. Exhibit 57. Thus, the OIG was unable to determine
whether any records were created and subsequently destroyed in connection with this
MUI. See also NRSI Enforcement Detail, MNY-07012, attached as Exhibit 66; Calamari
Interview Memorandum (unable to locate documents for Credit Suisse First Boston –
CDO Matter, MNY-07012, and no knowledge as to whether any documents were
                                                                           ENF9
created); NRSI Enforcement Detail, MSF-03288, attached as Exhibit 67;
Interview Memorandum (did not recall her role in MSF-03288, Wells Fargo & Co., and
unable to find any files for the matter beyond an e-mail opening the matter).

         The OIG also looked for evidence that records in connection with any MUI
related to Bernard Madoff were destroyed. According to notes from an August 23, 2010
meeting, discussed in greater detail below, Storch had stated during that meeting that
records from a MUI involving Bernard Madoff had been destroyed. Notes of August 23,
2010 Meeting, attached as Exhibit 68, at 4. Storch testified that he did not recall making
this statement at a meeting, but that this may have been discussed at the August 23, 2010
                                             ENF4
meeting. Storch Testimony Tr. at 90-91.           testified that he did not remember this
statement being made, but that “presumably if the Madoff MUIs were closed in this
period, then the records would have been treated like any other records . . . [a]nd
             ENF4                         ENF10
destroyed.”        Testimony Tr. at 64.            testified that he did not recall a Madoff

24
    This MUI is unrelated to the SEC investigation of statements by a Deutschebank executive that is the
subject of OIG-564, which concerns allegations that the PII
PII                                                         .

                                                   32

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



MUI being mentioned in this meeting, “but I do have a recollection of learning, or being
told at some point, that, you know, going back to the Madoff investigation, it was – at
least one of them was in a MUI stage. And so consistent with our policy, those
                                       ENF10                         ENF10
documents were probably destroyed.”             Testimony Tr. at 33.           testified
that he might have learned this from Storch. Id.

         The OIG found several MUIs to have been opened at the SEC relating to Bernard
Madoff or Bernard Madoff Investment Securities, LLC. One such MUI, MNY-01498,
titled, In the Matter of King Arthur, opened in 1992, became part of an investigation,
NY-06066 and, thus, the Enforcement policy to destroy documents upon closing MUIs
that did not become investigations did not apply. See NRSI Enforcement Detail, MNY­
01498, attached as Exhibit 69. Similarly, MNY-07563, Certain Hedge Fund Trading
Practices, became an investigation, NY-07563, on January 24, 2006, and so the
Enforcement policy to destroy documents upon closing MUIs that did not become
investigations was inapplicable to this instance. See NRSI Enforcement Detail, MNY­
07563, attached as Exhibit 70. The OIG was able to obtain copious amounts of records
generated during these MUIs and investigations as part of its 2009 Investigation of
Failure of the SEC to Uncover Bernard Madoff’s Ponzi Scheme, OIG-509. 25

        On April 4, 2001, the LARO opened a MUI titled Certain Broker Dealers In
Violation Of Limit Order Display Rule, MLA-02469, as a result of a referral from the
Office of Compliance Inspections and Examinations concerning possible violations of the
limit order display rule by the broker-dealer business of Bernard L. Madoff Investment
Securities, LLC and two other firms. NRSI Enforcement Detail, MLA-02469, attached
as Exhibit 71. The Enforcement Staff closed this MUI on November 20, 2001, because
“the staff has determined that this matter is inappropriate for enforcement action given
that the systems problems that resulted in the Display Rule violations appear resolved.”
See CATS 2000 Entry Form, MLA-02469, attached as Exhibit 72. The staff attorney and
branch chief assigned to this MUI have since left the Commission. The OIG was able to
obtain records generated during this MUI as well in the course of OIG-509. 26

        The OIG found two other MUIs in which neither Madoff nor his firm appeared to
be the primary focus, but which listed Madoff as a “Related Name.” The NRSI database
entry for a MUI titled Teledata Financial Corp., MNY-01592, which was opened on
November 20, 1992, and closed on September 21, 1993, as “Inappropriate for
Enforcement Action,” listed Bernard Madoff, among others, as a “Related Name.” NRSI
Enforcement Detail, MNY-01592, attached as Exhibit 73. No Enforcement staff is listed
in the NRSI entry for this MUI (apart from the Director of the New York Regional Office
[NYRO], who did not work at the SEC during the time period of the MUI but whose
name was listed merely because he was the current head of the office.) Id. The database

25
    The documents obtained in the course of OIG-509 enabled the OIG to complete its comprehensive
analysis of the SEC’s failure to uncover Bernard Madoff’s Ponzi scheme. See Report of Investigation No.
OIG-509, http://www.sec.gov/news/ studies/2009/oig-509.pdf.
26
    See http://www.sec.gov/news/studies/2009/oig-509.pdf.

                                                   33

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



entry provided little information about the nature of the inquiry other than the keywords
“Investment Adviser” and “Fail to Registr (BD/IA/IC/ETC).” Id. The OIG was therefore
unable to determine whether records were created or destroyed in connection with this
MUI. Another MUI, MNY-01596, Trading In Certain Securities, opened on November
24, 1992, listed Bernard Madoff as a “Related Name” and appeared from the NRSI
database entry to be an insider trading MUI. NRSI Enforcement Detail, MNY-01596,
attached as Exhibit 74. The NRSI entry noted, under “Related Matters,” the NY-6066
King Arthur investigation and then noted “MUI to Investigation.” Id. However, the
NRSI entry also noted that this MUI was closed on January 24, 1994, as “Inappropriate
for Enforcement Action,” so it is unclear whether or not this MUI became part of the NY­
6066 King Arthur investigation. Id. It is also unclear from this NRSI entry whether any
records were generated in connection with this MUI. Id. No Enforcement staff is listed
in the NRSI entry for this MUI (apart from the Director of NYRO, whose name was
listed merely because he was the current head of the office.) Id.

        However, notwithstanding these instances of record destruction in connection
with MUIs that were closed without becoming investigations, the OIG is not aware of a
particular investigation that was hampered by the destruction of records for a MUI,
although the OIG has not conducted an exhaustive audit or review of the potential impact
on Enforcement investigations of the destruction of MUI documents over the years. 27
Enforcement Director Robert Khuzami stated in a September 14, 2011 letter to Senator
Charles Grassley:

                  We do not believe that current or future investigations have
                  been harmed by the Division’s old MUI retention guidance.
                  We believe the electronic MUI information that we retain
                  allows staff to “connect the dots” between current and
                  closed matters . . . [I]t is less likely that significant
                  information would have been obtained in a MUI that would
                  be both important to a current matter and not available
                  either from the staff who handled the closed MUI, other
                  internal SEC information resources, or third parties.

Exhibit 50 at 3. 28




27
    As discussed above, the OIG found the information contained in the SEC’s electronic NRSI and HUB
databases concerning MUIs to vary from entries with mere skeletal information about a particular MUI to
entries with detailed descriptions of the issues and investigative steps for a particular MUI.
28
    In light of the destruction of records for MUIs and the absence of more detailed electronic or other data
for many of these MUIs, it would be very difficult for an OIG audit to attempt to reconstruct all prior
Enforcement MUIs and investigations to determine whether, and to what extent, investigations or MUIs
were hampered by the destruction of MUI records.

                                                     34

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



        III.		   The SEC’s Response to NARA Regarding its Destruction of Records
                 Related to Closed MUIs was Incomplete

                 A. On July 29, 2010 NARA Sent the SEC a Letter Seeking a Written
                    Report Concerning its Past Destruction of MUI Records

         As discussed in Section I.F. above, NARA had been informed by Flynn in June
2010 that that the SEC had been destroying records relating to MUIs for years. On July
29, 2010, the Director of the Modern Records Programs at NARA sent a letter to Walters,
stating:

                 We recently learned from Darcy Flynn, an attorney with
                 your agency’s Division of Enforcement, that for the past 17
                 years the Securities and Exchange Commission (SEC) has
                 been destroying closed Matters Under Inquiry files, a series
                 of records that has not yet been scheduled. It therefore
                 appears that there has been an unauthorized disposal of
                 Federal records.

                 In accordance with NARA’s responsibilities under 44
                 U.S.C. 2905, we would appreciate your looking into this.
                 If you confirm that Federal records have been destroyed
                 improperly, please ensure that no other such disposals take
                 place and provide us with a written report within 30 days of
                 the date of this letter as required by 36 CFR 1230.14 and 36
                 CFR 1230.16 (copy enclosed).

July 29, 2010 Letter from Paul Wester to Barry Walters, attached as Exhibit 75.

        36 C.F.R. § 1230.14 states that an agency must report promptly any unlawful or
accidental removal, defacing, alteration, or destruction of records in the custody of that
agency to NARA, including: (1) a complete description of the records with volume and
dates if known; (2) the office maintaining the records; (3) a statement of the exact
circumstances surrounding the removal, defacing, alteration, or destruction of records; (4)
a statement of the safeguards established to prevent further loss of documentation; and
(5) when appropriate, details of the actions taken to salvage, retrieve, or reconstruct the
records.

                 B. The Division of Enforcement Responded to NARA that it was “Not
                    Aware of Any Specific Instances of the Destruction of Records”
                    Related to Closed MUIs

       As discussed above, NARA requested that the SEC “look[] into [whether] Federal
records [had] been destroyed” in connection with closed MUI files. However, in the
process of drafting a response to NARA, the SEC made no inquiries designed to address

                                                   35


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



NARA’s question. Instead, the SEC’s Division of Enforcement declared that it was “not
aware of any specific instances of the destruction of records from any [MUIs that were
closed without a subsequent formal investigation], but we cannot say with certainty that
no such documents have been destroyed over the past seventeen years.”

        As discussed in detail below, various drafts of the response to NARA
acknowledged that the closed MUI files at issue often included correspondence records
and admitted that the staff routinely destroyed these files, including records. However,
the final response to NARA did not include any such acknowledgement.

       Flynn initially drafted an SEC response to this NARA letter and circulated it to
ENF4             SEC2
     Storch, and            on August 3, 2010. August 3, 2010 E-mail from Darcy Flynn
to Adam Storch, attached as Exhibit 76. Flynn’s draft response included an
acknowledgment that MUI records had been destroyed as follows:

                       MUI records typically include correspondence, interagency
                       memoranda, and exculpatory documents, if any, supporting
                       a decision not to open a formal investigation. On average,
                       a MUI consists of 1/10 box of records plus about 3 boxes of
                       pre-deliberative, non-record information, primarily in the
                       form of documents produced to the staff. From January 1,
                       2008?? to July 20, 2010, approximately 600 MUIs were
                       closed and both the non-record information and the records
                       were discarded for about all but a few them.

Id.
              ENF4
                     responded via e-mail to Flynn’s draft response:

                       I would really like to discuss before anything goes out. Our
                       treatment of MUI records and Investigative records has
                       always been consistent with our understanding of our
                       agreements with NARA. My understanding is that MUI
                       records were treated as a sub-set of Investigative records,
                       and, in the rare instances in which Category A-E records
                       were obtained (usually because testimony was taken, which
                       is no longer allowed), those records were in fact retained at
                       closing. To the extent that any confusion was introduced
                       by the drafting of a revised retention schedule that
                       specifically refers to MUIs, that should not be taken as a
                       basis for concluding that any official records were
                       improperly destroyed.
       ENF4
Id.      acknowledged in his OIG testimony that he “had no direct knowledge” to
support his assertions in his e-mail that it was “rare” for closed MUI files to include

                                                    36


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


                                                                                                     ENF4
Category A-E records and that in those rare instances the records were retained.
Testimony Tr. at 50-51.
                                   ENF4                 SEC2
             Flynn responded to           Storch, and               in an e-mail:

                       Seems to me that we (ENF) overlooked one thing: that just
                       about every MUI (not just rare ones) contain Category A-E
                       records. Namely: Category B correspondence. If we agree
                       on that, the simplest, most straight forward way to move
                       forward is to say so and, hopefully, be done with it.

Exhibit 76. Flynn testified that none of the recipients of this e-mail substantively
addressed his point that MUIs frequently contain Category B correspondence. Flynn
                        SEC2
Testimony Tr. at 132.              testified that she “honestly [did not] know” whether
                                                                      SEC2
MUI files had frequently contained Category B correspondence.                    Testimony Tr.
at 48. Storch similarly testified that he did not know whether Flynn’s statement was
accurate or not. Storch Testimony Tr. at 58-60. Storch also testified that he did not
believe that anyone involved in drafting the response to NARA made any effort to
                                                              ENF10
determine whether Flynn’s statement was accurate. 29 Id.                recalled
correspondence being “one of the concerns that we all had about the treatment of MUI
documents . . . . I mean, we talked earlier about there could be transcripts. I mean, I think
that’s very unusual and probably unlikely. But the correspondence would be more likely
                                ENF10
to be included in a MUI file.”             Testimony Tr. at 39-40.
                                             ENF4
        On August 11, 2010, Flynn,          and Storch participated in a meeting or a
conference call organized by Storch to discuss the SEC’s response to NARA’s letter.
                                                   ENF4      ENF4
August 10, 2010 E-mail from Adam Storch to                        attached as Exhibit 77;
Notes from August 11, 2010 Meeting, attached as Exhibit 78. Notes taken by Flynn
contemporaneously at this meeting state, “My concern – If we say ‘That’s true,’ may be
other fallout for Commission. Misdemeanor.” Exhibit 78. Flynn testified that these notes
                                   ENF4
referred to a statement made by         during the discussion. Flynn Testimony Tr. at 68,
      ENF4
106.       testified that he did not know if he made that statement, but “that would be my
concern, yes, that if we agreed that – that if it’s true that we’re destroying unscheduled
                                                                                           ENF4
records, then, yes, that could lead to criminal penalties. . . . yes, that was a concern.”
Testimony Tr. at 54.
                                                                             ENF4                  SEC2
        On August 12, 2010, Flynn sent proposed language to           Storch, and
to be included in the NARA response, including the statement that, “The one document
category that is discarded in MUIs and that is retained in investigations is external
correspondence with outside parties,” but arguing that such correspondence is “pre­

29   ENF10      ENF4
                  Walters, Storch, and SEC2       all testified that they did not recall there being any effort
by the SEC to look to determine whether any records were destroyed in connection with MUIs in July or
August of 2010, prior to sending this letter to NARA. ENF10       Testimony Tr. at 48; ENF4 Testimony Tr. at
                                                                  SEC2
89; Walters Testimony Tr. at 71; Storch Testimony Tr. at 100;               Testimony Tr. at 64.

                                                      37


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


                                                                                                ENF4
deliberative, non record material.” August 13, 2010 E-mail from Darcy Flynn to
ENF4                                     SEC2
      attached as Exhibit 79. Storch and          recommended that this statement not
be included in the letter to NARA. Id. On August 16, 2010, Storch circulated a new
                               SEC1
draft response to Walters and         which did not include the statement in Flynn’s draft
about MUI records typically including correspondence. August 16, 2010 E-mail from
                                                                             SEC1
Adam Storch to Barry Walters, attached as Exhibit 80. On August 19, 2010,
commented on this draft as follows:

                 Barry [Walters] and I have reviewed and discussed the
                 draft response to the National Archives letter. The National
                 Archives position is that there has been unauthorized
                 disposal of Federal records. It is not clear to us from this
                 draft if the Division of Enforcement is denying or admitting
                 that unauthorized disposal occurred. If unauthorized
                 disposal occurred then the response must include the
                 information required in 36 CFR 1230.14(a)1-5, a copy of
                 which was included with the letter.
                     SEC1                                                     SEC2              ENF4
Id. In response to 
           e-mail, Storch sent an e-mail to Flynn, 
             and
                                                                  ENF4              ENF10
stating, “We should discuss live . . . .” Id. Storch then asked 
      to “fill in
  ENF10
[           on this situation.” August 19, 2010 E-mail from Adam Storch to Darcy Flynn,
                                                       ENF10                 SEC1

attached as Exhibit 81. During his OIG testimony,
              agreed that
assessment of Storch’s draft “was a fair characterization of this [draft] letter. . . . I don’t
                    ENF10                                                   SEC1
think it’s clear.”           Testimony Tr. at 24. Storch also forwarded                 response
                                                                       SEC1     SEC1
to Heslop, writing, “Did you see the response Barry [Walters] and              [          sent me
today?” August 19, 2010 E-mail from Adam Storch to Jeffery Heslop, attached as
Exhibit 82.
                                           ENF10      ENF4                           SEC2
         On August 23, 2010, Storch,                  Flynn, and possibly
participated in a discussion regarding the response to NARA and the concern raised by
SEC1
         and Walters that the draft response did not admit or deny that destruction of
records had occurred. Exhibit 68. Flynn’s notes indicated that during this discussion
Storch estimated “18K MUIs [had been] destroyed.” Id. Flynn’s notes also indicated
                    ENF4
that Storch asked         “Would you feel comfortable saying we ‘deny’?” Id. According
                ENF4                                                               ENF4
to these notes,       responded, “6 mo ago – of course. Now – confusion.” Id.
testified that he did not recall making this statement, but that, “[Y]es, I would have been
much firmer in a response six months before we got” the letter from NARA, “and yes, we
                                       ENF4
needed to re-think where we were.”          Testimony Tr. at 62.

        Flynn’s notes also indicated that Storch raised the question of “[w]ho should 

respond. Implications to admit what was destroyed. Not wise for me to take on exposure

voluntarily. If this leads to something – rings in my ear – Barry [Walters] said this is
                                                                              ENF10
serious – could lead to crim. liab.” Exhibit 68. According to Flynn’s notes,
stated, “I wanna do research on this provision. Any prosecutions under this?” Id. When
asked whether anyone at the SEC expressed concern that the SEC was going to be in

                                                   38


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


                                                                                  ENF10
some sort of trouble for having destroyed documents for many years,                 testified,
“Yes. Yes. . . . I think it’s a violation of a federal law to destroy documents. . . . I can’t
       ENF4   ENF4
recall      [       saying anything to that effect, but I’m sure that he did. I talked to
                                                                    ENF10
Adam [Storch] about it. I’m sure that he was very concerned.”                 Testimony Tr. at
22-23. Heslop testified that he did not recall Storch or anyone else expressing concerns
about liability if the SEC admitted to the destruction of records, but that “I think there
was a conversation about, gee, is this going to be embarrassing or not.” Heslop
Testimony Tr. at 36.

            Finally, Flynn’s notes indicated that Storch stated at one point during this
discussion that he was “getting concerned” about the working relationship with Walters
       SEC1
and              “based on (1) their response (2) in writing. I plan on talking to Jeff Heslop,
Barry’s boss,” and at another point stated, “I’m gonna touch base w[ith] Jeff [Heslop],
                                                                                           SEC1
have good rel[ations] w[ith] him, he’s aware of difficulties w[ith] Barry [Walters] +
  SEC1
[               Exhibit 68.

        The next day, August 24, 2010, another meeting or conference call was held,
                           ENF10     ENF4
attended again by Storch,                 and Flynn, but this time also by Walters and
SEC1
         Notes of an August 24, 2010 Meeting, attached as Exhibit 83. During that
          ENF4              SEC1
meeting,       explained to        and Walters that “it would have been unusual but not
impossible” for Category A though E materials to have been generated in the course of a
MUI, and that there should not have been correspondence generated in the course of a
                                                                            SEC1
MUI because MUIs usually did not “reach that level of complexity.”                 Testimony
Tr. at 90-96, 111-113; see also Exhibit 83 (According to Flynn’s notes of that meeting,
ENF4
     stated, “Division has always believed – for 20 yrs – unless testimony, other stuff –
                                                                       ENF4
would not fall into categories.”). Based upon that explanation by            (which was not
                                                            SEC1
accurate, as explained in Section II above), Walters and             advised that Enforcement
could respond to NARA by stating that they had no knowledge that MUI records were
                                                                                      SEC1
destroyed but could not say for a fact that such destruction had never occurred.
                                    SEC1
Testimony Tr. at 90-96, 111-113.            testified that this advice was “based on what
                                                                 ENF4
they had told me in what I thought was good faith,” and that             assertion that it would
have been unusual for MUIs to generate Category A through E records “made perfect
sense to me not knowing the process.” Id. at 93-95.
                                                          SEC1
        After the August 24, 2010 meeting with          and Walters, the draft response to
                               ENF4       ENF10
NARA was further revised by          and        on August 24, and 25, 2010, with input
                                                       ENF4       ENF4      ENF10 ENF10
from Storch and Flynn. August 24, 2010 E-mail from                       to
                                                      ENF10 ENF10         ENF4       ENF4
attached as Exhibit 84; August 24, 2010 E-mail from                    to
                                                                   ENF10 ENF10
attached as Exhibit 85; August 25, 2010 10:12 a.m. E-mail from                      to Adam
             ENF4    ENF4
Storch and                attached as Exhibit 86; August 25, 2010 12:41 p.m. E-mail
      ENF10 ENF10                         ENF4   ENF4
from               to Adam Storch and                  attached as Exhibit 87; August 25,
                                    ENF10 ENF10
2010 E-mail from Darcy Flynn to                 attached as Exhibit 88.
                                  ENF10                                          ENF4
       On August 25, 2010,         circulated a draft to Storch and     on August 25,
                                     ENF10
2010, with an accompanying e-mail by          stating, “For your review and comment.

                                                   39


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



I’ve tried to capture what we discussed yesterday.” Exhibit 86. This is the first draft
response found by the OIG investigation that included the statement:

                       [T]he Division [of Enforcement] is not aware of any
                       specific instances of the destruction of records subject to
                       the twenty-five year retention requirement from any other
                       MUI (i.e. a MUI that was closed without a subsequent
                       formal investigation), but we cannot say with certainty that
                       no such documents have been destroyed over the past
                       seventeen years.

Id.

        On August 25, 2010, Storch sent a draft response to Heslop for him to review,
writing in an accompanying e-mail, “Please let us know if you have any questions or
comments.” August 25, 2010 E-mail from Adam Storch to Jeffery Heslop, attached as
Exhibit 89. Heslop responded later that day, “Looks pretty tight to me . . . from a
layman’s perspective I’d be hard pressed to argue with the response. I’m meeting with
Barry [Walters] @ 9 tomorrow, will circle back if there are objections.” Id. (ellipses in
original).
                                          ENF4                                              SEC1
        Also on August 25, 2010,       sent a draft response to Walters and
                               ENF4    ENF4
August 25, 2010 E-mail from                  to Barry Walters, attached as Exhibit 90. The
next day, August 26, 2010, a couple of hours after Walters’ scheduled meeting with
Heslop, Walters wrote in an e-mail, “Looks good . . . .” Id. Among Walters’ comments
                                              ENF10
was the suggestion to delete a statement that          had added to an earlier draft that,
“For any MUI that was closed, but not closed into a formal investigation, staff would
typically destroy any documents in the MUI file upon closing the matter.” Id.
             ENF4
              incorporated Walters’ suggested changes into the draft SEC response to
                                                       ENF10
NARA, including the deletion of that statement. Id.              then circulated a final draft
                               SEC1             SEC2       ENF4
response to Heslop, Walters,            Storch,                 and Flynn, stating, “We
                                                                                 ENF4    ENF4
believe it incorporates the substance of Barry’s comments. Please let me or            [
know if you have any additional questions or comments.” August 26, 2010 E-mail from
ENF10 ENF10
               to Jeffery Heslop, attached as Exhibit 91. 30 The next day, on August 27,
                                                                               ENF10
2010, Walters responded, “Great, let’s sign and send.” Id. Later that day,                 signed
                                                                         ENF10     ENF10
and sent the SEC’s response to NARA. August 27, 2010 Letter from                              to
                                       31
Paul Wester, attached as Exhibit 92.

30    SEC2          SEC2                                                                   , testified that she
played no role in the drafting or editing of the SEC’s response to the July 29, 2010 NARA letter. SEC2
Testimony Tr. at 36, 52.


31
    36 C.F.R. § 1230.14 states that an agency report of unlawful or accidental destruction of records must
be submitted or approved by the individual authorized to sign records schedules.

 SEC1
 testified that he

had no idea why the letter was not signed by himself, Walters, or
 SEC3 SEC1 Testimony Tr. at 109-110.
Similarly, Walters testified that he did not know why Enforcement signed the letter to NARA instead of

                                                      40


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




         The entirety of the SEC’s August 27, 2010 letter to NARA was as follows:

                   This is in response to your letter of July 29, 2010, to Barry
                   D. Walters, the Commission’s Chief Freedom of
                   Information and Privacy Act Officer. In your letter, you
                   ask that Commission staff look into the disposition of files
                   related to Matters Under Inquiry (MUI), to confirm
                   whether there has been an unauthorized disposal of MUI
                   files.

                   As an initial matter, there appears to be some confusion
                   regarding the nature of a MUI and the materials that would
                   normally be found in a MUI file. The MUI system was
                   originally created as an electronic database for tracking
                   preliminary investigations, to avoid duplication of effort by
                   the Commission’s investigative staff. Over time,
                   Enforcement staff began to use the term MUI to refer to a
                   preliminary investigation, or the period of investigation
                   prior to an investigation. While staff would generate and
                   collect materials during the preliminary stages of an
                   investigation, those materials would typically consist of
                   background information that would not normally be
                   included in the case file.

                   In response to your request, we have reviewed this matter
                   and confirm our understanding of the following: (i) the
                   Division of Enforcement has retained electronic records
                   relating to the opening and closing of the MUIs in question;
                   those records are stored in the Commission’s investigative
                   case and action tracking system (“CATS”), (ii) the Division
                   has retained, consistent with the applicable record retention
                   schedules approved by NARA, records from any MUI that
                   was subsequently closed into a formal investigation, and

someone in the Records Management group. Walters Testimony Tr. at 58. ENF10              testified that he did not
recall how it was decided that he was to sign the letter, but that, “I’m in the Office of Chief Counsel. If
there was a chief counsel at that time who was actively engaged, it would make sense for it to come from
that person.” ENF10     Testimony Tr. at 44. Storch testified, “Right off the bat it was very clear that Barry
[Walters] thought that Enforcement should sign off on a letter. I’m not sure why he thought that way.”
Storch Testimony Tr. at 87. Heslop testified that it “may have been the case” that Walters wanted
Enforcement to sign the letter to NARA instead of his Records Office because Walters did not necessarily
agree with the letter, and that Walters “might have” still had some concerns about the letter. Heslop
Testimony Tr. at 30-31. Heslop testified, “I think [Walters] felt like he needed to follow the letter. And I
don’t know if the [sic] was a law or the reg code or federal regulations. And he may have felt
uncomfortable signing it because it might not have. I don’t really recall it precisely.” Id. at 31.


                                                       41


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 (iii) the Division is not aware of any specific instances of
                 the destruction of records from any other MUI (i.e., a MUI
                 that was closed without a subsequent formal investigation),
                 but we cannot say with certainty that no such documents
                 have been destroyed over the past seventeen years.
                 However, the Division has taken steps described below to
                 ensure that no MUI records are destroyed while we review
                 this issue and revise our retention schedule.

                 As you know, we are currently in the process of reviewing
                 and updating our current retention schedule. In doing so,
                 our principal goal is to adopt clear guidelines and
                 procedures regarding the retention of the Division’s files,
                 including MUI files. In particular, we have sought to
                 clarify the distinction between preliminary and formal
                 investigations and documents generated or obtained in
                 those investigations, and to establish distinct schedules for
                 both. In connection with our review, on July 21, 2010, we
                 directed our staff to retain all MUI records pending NARA
                 approval of a revised retention schedule. The documents
                 subject to this hold include any correspondence,
                 interagency memoranda or other documents supporting a
                 decision not to open a formal investigation.

                 Please do not hesitate to contact me if you have any
                 questions or wish to discuss this further. We look forward
                 to working with you and your staff on the revisions to our
                 document retention schedule.

Id.

                 C. The Response to NARA Did Not Comply with Federal Regulations

        36 C.F.R. § 1230.14(a) states that an agency report of any unlawful or accidental
removal defacing, alteration, or destruction of records in the custody of that agency to
NARA must include “a complete description of the records with volume and dates if
known” and “a statement of the exact circumstances surrounding the removal, defacing,
alteration or destruction of records.”

        NARA stated to the OIG in a written opinion that it did not receive this specific
information in the August 27, 2010 letter from the SEC. Exhibit 52 at 2. In addition,
                  Arc1  Arc1
NARA Archivist                      who participated in NARA’s review of the SEC’s
records retention schedule, stated in an OIG interview that she personally did not think
the SEC’s August 27, 2010 letter to NARA satisfied the legal requirement that an agency
report of any unlawful or accidental removal defacing, alteration, or destruction of

                                                   42 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



records in the custody of that agency to NARA must include “a complete description of
the records with volume and dates if known” and “a statement of the exact circumstances
                                                                          Arc1
surrounding the removal, defacing, alteration or destruction of records.”
Interview Memorandum.
         ENF4
            testified that the SEC did not report a complete description of the records
unlawfully or accidentally destroyed or a statement of the exact circumstances
                                               ENF4
surrounding the destruction of such records.        Testimony Tr. at 78. Walters
acknowledged in testimony that the SEC’s letter to NARA clearly did not comply with 36
C.F.R. § 1230.14. Walters Testimony Tr. at 70. Although Storch repeatedly testified that
the SEC’s intent was to be “fulsome and to be transparent with NARA” in the SEC’s
response to NARA’s July 29, 2010, he acknowledged in testimony that he did not believe
that the SEC’s letter to NARA provided a complete description of the records and
volumes and dates, if known, and a statement of the exact circumstances surrounding the
removal, defacing, alteration, or destruction of records, as required by 36 C.F.R. §
1230.14. Storch Testimony Tr. at 104-05, 107-08.

                  D. The Response to NARA Omitted Pertinent Information

        The SEC’s response to NARA’s July 29, 2010 letter omitted information
important to understanding the scope and nature of the issue relating to the destruction of
MUI records. In particular, the SEC was aware of several facts that it could have
included in its response that were contrary to the SEC’s statement that “the Division [of
Enforcement] is not aware of any specific instances of the destruction of records from
any other MUI (i.e., a MUI that was closed without a subsequent formal investigation),
but we cannot say with certainty that no such documents have been destroyed over the
past seventeen years.” 32

                        1.		 The SEC’s Response Omitted the Fact that it Had Been
                             Enforcement’s Policy to Destroy All Documents Upon
                             Closing a MUI

       As discussed in Section I.B. above, the SEC’s longstanding written policy prior to
July 20, 2010, had been to destroy all documents relating to MUIs. This policy was
understood by officials within and outside Enforcement, including the drafters and
reviewers of the SEC’s response to NARA. See Section I.B. infra. Moreover, a draft

32
     The SEC’s August 27, 2010 letter to NARA also stated, “While staff would generate and collect
materials during the preliminary stages of an investigation, those materials would typically consist of
background information that would not normally be included in the case file.” Exhibit 92. In light of the
OIG’s finding of numerous instances of non-“background information” such as document requests and
other correspondence being generated in the course of MUIs, as discussed in Section II above, it may have
actually been relatively common for non-“background information” to be generated in MUIs. However, in
light of the ambiguity of this statement as to what “typically” meant, and as to whether “consist” was meant
to imply that MUIs consisted solely of background information, the OIG cannot conclude that this
statement was materially false.

                                                    43

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



response stated, “For any MUI that was closed, but not closed into a formal investigation,
staff would typically destroy any documents in the MUI file upon closing the matter.”
Exhibit 88. This statement was not included in the final response sent to NARA. Exhibit
     ENF4           ENF10              SEC1
92.        Storch,           Walters,           and Heslop, all of whom were involved in
drafting or reviewing the SEC’s August 27, 2010 letter to NARA, were all aware that it
had been the SEC’s policy to destroy documents upon closing MUIs, as evidenced,
among other things, by their involvement in the discussion over how and when to change
                                                                             ENF4
this policy in June and July of 2010, as discussed in Section I.G., above.        Testimony
                 ENF10
Tr. at 8, 11-12;          Testimony Tr. at 12-13, 47; Heslop Testimony Tr. at 25, 32-33;
Walters Testimony Tr. at 61 (“[B]ased on everything that had occurred now over, I think,
two months of these conversations going back and forth, people were saying that these
[MUI] records had been destroyed for 17 years.”); Storch Testimony Tr. at 15-16 (“[A]s I
understood it at the time, . . . the case closing guidance that existed on EnforceNet made
it very clear that once a MUI is closed, documents related to those MUIs . . . could be and
should be destroyed after a MUI was closed.”).
            ENF10
                acknowledged in testimony that it was possible that NARA would get the
impression from the SEC’s letter that perhaps there were no documents destroyed upon
               ENF10                          ENF10
closing MUIs.           Testimony Tr. at 48.           testified that he was aware that a
MUI file, during the preliminary stages of an investigation, may include correspondence
or other documents that would not be considered background information. Id. at 51-52.
            ENF4
             testified that the statement in the letter that the Division is not aware of any
specific instances of the destruction of records from any other MUI “can be read in a way
                                  ENF4                         ENF4
that it would not be accurate.”        Testimony Tr. at 75.         acknowledged in his
testimony that, prior to the July 20, 2010 guidance being sent to the Enforcement staff,
the Enforcement staff would have routinely destroyed MUI documents. Id. at 44.

                         2.		 The Division of Enforcement was in Fact Aware of Specific
                              Instances of the Destruction of Records

        Despite the statement in the SEC’s August 27, 2010 response letter that “the
Division is not aware of any specific instances of the destruction of records from any
other MUI (i.e., a MUI that was closed without a subsequent formal investigation), but
we cannot say with certainty that no such documents have been destroyed over the past
seventeen years,” the Division of Enforcement was aware of at least one specific instance
of the destruction of records from a MUI that was closed without a subsequent formal
investigation.
                                                                    ENF6   ENF6
       As discussed in Section II above, staff attorney            who is part of the
Division of Enforcement, 33 was aware of the destruction (in accordance with


33   SEC2
               testified that she understood “the Division,” as used in this August 27, 2010 SEC letter, to
refer to “the Enforcement program.” SEC2          Testimony Tr. at 64. Storch testified that “it appears as

                                                      44

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



Enforcement policy at that time) of records in connection with a MUI that she closed in
July 2010. 34 A few minutes after the July 20, 2010 guidance was sent to the Enforcement
                ENF6                     SEC3
Division staff         sent an e-mail to         stating: “I received approval to close a MUI
last week and I shredded the documents and deleted e-mails yesterday (Monday). Is that
a problem?” July 21, 2010 E-mail from Barry Walters to Jeffery Heslop, attached as
             SEC3
Exhibit 93.          concerned that the destruction of MUI records might have occurred,
                          ENF6                SEC1
immediately forwarded             e-mail to            who then forwarded the e-mail to
               SEC3
Walters. Id.;         Testimony Tr. at 19. The next day, on July 21, 2010, Walters sent
ENF6
        e-mail to Heslop, marked with “High” importance, in which he wrote:

                  ISSUE: destruction of records related to Matters Under
                  Investigation (MUIs) by the Enforcement Division.
                                              SEC1   SEC1
                  RECENT HISTORY:                     issued guidance to the
                  Enforcement Division on 6/16 to stop destruction of MUI-
                  related documents. . . . Sometime between approx 6/16 and
                  6/24, Darcy Flynn, an Enforcement Division attorney,
                  called NARA directly to discuss the issue and apparently
                  admitted that the SEC had been destroying these records
                  for years. . . .

                  After the [July 20, 2010 Enforcement-wide MUI retention]
                  notice was sent, Records Management received the e-mail
                       ENF6   ENF6
                  from              stating that she destroyed MUI-related
                  documents and emails on 7/19. . . .

                  RECOMMENDATION: At this point I think we should
                  ensure that Rob Khuzami has been made aware of this
                  matter, and that you mention it briefly to the Chairman
                  during your Friday meeting. If you agree, let’s discuss
                  options for getting Khuzami in the loop.

Exhibit 93.
                                                                                                       ENF6
       Heslop then forwarded this string of e-mails, including those of Walters and
concerning the destruction of MUI documents, to Storch on July 21, 2010, explaining to
Storch that the e-mail “was meant for internal use, and Barry would probably shoot me if
he thought I sent it . . . .” Id.; July 21, 2010 E-mail from Jeffery Heslop to Adam Storch,
attached as Exhibit 94. Heslop testified that he sent this to Storch because, “I wanted
Adam [Storch] to be aware of the fact that, you know, this is getting bigger than I think I


though the letter is representing the Division of Enforcement’s views, not a specific person or persons.” 

Storch Testimony Tr. at 97.


34
    As discussed in Section II above, this is not the only instance of MUI record destruction that the OIG


investigation has found.



                                                     45
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



certainly had possibly imagined at the time. . . . I wanted Adam [Storch] to have full
transparency into the background that was going to involve his boss and potentially
congressional notification.” Heslop Testimony Tr. at 22. 35 Storch responded to Heslop
via e-mail, “After reading the email, I think its best that we discuss live.” Exhibit 94.
                                                                                                   ENF6
        Storch forwarded this string of e-mails, including those of Walters and
                                                        SEC2
concerning the destruction of MUI documents, to                    warning, “Do NOT share
this with anyone. [Heslop] sent this to me in confidence.” Exhibit 93. 36
                                                                               SEC2


responded to Storch via e-mail, “Interesting what some people take away from situations
                                                                     SEC2
like these . . . .” Id. (ellipsis in original). Storch then wrote to          via e-mail, “I am
going to talk with Jeff [Heslop] tomorrow live. I appreciate that he shared this with me.
Let’s [sic] us know what we’re dealing with . . . .” Id. 37 (ellipsis in original).

        Even when Enforcement officials such as Storch were made aware in July 2010
                    ENF6
that staff attorney      had raised concern about her recent destruction of MUI
documents, no effort was made to verify whether these documents were records that
needed to be maintained. 38
         ENF10                                               ENF6
                 testified that he had never seen            e-mail about her shredding of
documents and deletion of e-mails, and that he did not recall having any understanding
     ENF6
that        or any other Enforcement attorney being concerned about having destroyed
                   ENF10
MUI documents.                 Testimony Tr. at 19-20. He also testified, however, that he
would not be surprised if she had such a concern, since it was Enforcement’s policy prior
to July 20, 2010 to destroy MUI documents. Id. When asked whether the Division of
                                                         ENF6                       ENF10
Enforcement was aware of the specific instance that             destroyed records,
                                                                                       ENF6
testified, “Yeah. . . . [I]t’s hard to say that we didn’t know about that. . . . [T]he

35
   Heslop testified that he did not speak with Khuzami about the issue of MUI records, and that he did not
know whether anyone else did. Heslop Testimony Tr. at 23.
36 SEC2
            testified:

                  [I]f I remember correctly, I actually asked Darcy [Flynn] to follow up
                  with ENF6 [ENF6 when I got this email from Adam [Storch] and said,
                  you know, ‘Can you get an understanding? Do we actually – did she
                  destroy something that would have been considered A through E?’
                  And Darcy got back to me, and said, ‘No, it would have fallen
                  underneath the normal records retention policy that we had prior to the
                  guidance being sent out.’
SEC2
          Testimony Tr. at 47. However, ENF6 testified that she has never had any communications with
         SEC2
Flynn or            about this MUI, and Flynn stated to the OIG in an interview that he never spoke with
ENF6
      or SEC2       about ENF6     e-mail or the issue it raised concerning the destruction of documents for
her MUI. ENF6 Testimony Tr. at 19-20; Flynn Interview Memorandum.
37
     Heslop testified that he did not recall a conversation with Storch around this time, but that “[i]f he said
he was going to talk to me the next day, I assume he did.” Heslop Testimony Tr. at 24.
38
     As discussed in Section III.B., above, several of the Enforcement staff involved in drafting the letter to
NARA were aware that ENF6 had recently destroyed documents related to a particular MUI, and none of
those staff made any effort to determine whether some of those documents had been records.

                                                       46

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.


ENF6
       instance, that’s a specific instance and it’s hard to say that we didn’t know of that.”
ENF10                                ENF10
         Testimony Tr. at 45-47.               testified further that “[W]e didn’t know what
                                           ENF6     ENF6
was in the files that were destroyed by           [        . . . We probably should have gone
                                                                   ENF10
back and checked before making a statement [to NARA].”                     Testimony Tr. at
45. 39
                               Arc1     Arc1
       NARA Archivist                      stated that she was not aware that an SEC staff
attorney sent an e-mail in July 2010 to the SEC’s SEC3              in which the staff
attorney stated that she had closed a MUI the previous week and disposed of the
                                               Arc1
documents and e-mails relating to the MUI.               Interview Memorandum.
Arc1
          stated that she “absolutely” would have wanted to know that an SEC staff
attorney had recently disposed of documents and e-mails related to a closed MUI. Id.
Arc1
          stated to the OIG concerning the SEC’s August 27, 2010 letter, “Ideally, we
would have liked something more forthcoming. It was kind of ‘lawyerese.’” Id.

       The Chief Records Officer for NARA stated in a written opinion to the OIG that,
“Based on the investigative information provided in your letter, it does appear that the
statement [that ‘the Division is not aware of any specific instances of the destruction of
records from another MUI, but we cannot say with certainty that no such documents have
been destroyed over the past seventeen years . . .’] was inaccurate or misleading.”
August 31, 2011 Letter from Paul Wester to David Kotz, attached as Exhibit 52, at 2.

          Notes taken at other August 2010 meetings, discussed in Section III.B., above,
indicated that Enforcement may have been motivated to exaggerate the unlikelihood of
records being destroyed in the course of a MUI for fear of criminal exposure for the SEC.
     ENF4
See        Testimony Tr. at 54 (“that would be my concern, yes, that if we agreed that –
that if it’s true that we’re destroying unscheduled records, then, yes, that could lead to
                                                      ENF10
criminal penalties. . . . yes, that was a concern.”);         Testimony Tr. at 22-23 (when
asked whether anyone at the SEC expressed concern that the SEC was going to be in
some sort of trouble for having destroyed documents for many years, “Yes. Yes. . . . I
                                                                                   ENF4  ENF4
think it’s a violation of a federal law to destroy documents. . . . I can’t recall      [
saying anything to that effect, but I’m sure that he did. I talked to Adam [Storch] about

39     ENF10
               in a written statement provided to the OIG after his testimony, stated that “I did not intend for
the letter to National Archives to create the impression that the Division had not disposed of MUI
documents in the past.” August 9, 2011 E-mail from ENF10 ENF10            attached as Exhibit 105. ENF10
further stated:

                  [W]e did not believe that we could provide the National Archives with
                  the detailed information regarding the past disposal of MUI documents
                  required under the regulations in the short amount of time allowed for a
                  response. But I also expected that the response to the National
                  Archives letter would result in further discussions (likely many
                  discussions) with the National Archives regarding a number of issues,
                  but including the past disposal of MUI documents.

Id.

                                                      47

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



it. I’m sure that he was very concerned.”). Heslop testified that he could not say that the
Enforcement Division in its letter to NARA was trying to hide the fact that they were
destroying documents, but that “I think they were trying to cautiously word it for
whatever, you know, reasons it might have motivated them. Again, I think the
embarrassment factor was the one that I recall being, you know, on the table.” Heslop
Testimony Tr. at 38.

                 E. NARA Remains Concerned about Enforcement’s Disposition of
                    MUI Records

       A letter dated September 29, 2010 from NARA to Walters acknowledged the
SEC’s August 27, 2010 letter to NARA. September 29, 2010 Letter from Paul Wester to
Barry Walters, attached as Exhibit 95. The letter stated:

                 We are satisfied that the Division of Enforcement has taken
                 the necessary steps to prevent any future unauthorized
                 destruction of electronic and/or textual Matters Under
                 Inquiry (MUI) files. . . .

                 However, in accordance with NARA’s responsibilities
                 under 44 U.S.C. 2905, we remain concerned. The Matters
                 Under Inquiry (MUI) definition and description remain
                 indeterminate. These files are incompletely defined,
                 unscheduled, and so remain at risk. Consequently, we will
                 maintain the unauthorized destruction case of the Matters
                 Under Inquiry (MUI) files as open until these records are
                 covered by a records control schedule signed by the
                 Archivist of the United States.
                                     ENF10
Id. Upon reviewing this letter,        wrote in an e-mail to Storch, “I think that this is
probably the best response we could have expected under the circumstances, but let me
                                                                                ENF10
know if you have concerns or want to discuss.” October 14, 2010 E-mail from
ENF10
        to Adam Storch, attached as Exhibit 96. Storch responded via e-mail, “Very
good response – thanks for helping us with this.” Id.

        In an August 31, 2011 letter to OIG, the Chief Records Officer for NARA stated:

                 NARA’s remaining concerns relate to the uncertainty as to
                 whether MUI records are synonymous with preliminary
                 investigations, or, in the alternative, lack a NARA-
                 approved records disposition authority covering these
                 records. As we have communicated to the SEC records
                 management staff, they must clarify this issue for us and
                 take appropriate action to either create a new schedule for


                                                   48

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 these records or propose a revision to one or more existing
                 schedules.

August 31, 2011 Letter from Paul Wester to David Kotz, attached as Exhibit 52.
        SEC2
                   testified that, going forward, the SEC plans to retain all MUI documents
falling into Categories A through E, and that the SEC has been in the process of drafting
a new proposed records retention schedule for NARA that would include retaining these
              SEC2
documents.               Testimony Tr. at 61-63.

         However, there does not appear to have been any effort made by Enforcement to
retrieve or centralize records from MUIs that have been closed prior to July 20, 2010 that
still exist in individual attorneys’ case files or computers and have not been sent to the
Federal Records Center, as required by the current records retention schedule for
Enforcement. Exhibit 34. Storch testified that he was not aware of there being any effort
by the SEC, prior to news media reports in August 2011 about potential destruction of
MUI records, to retrieve records that were potentially deleted as part of a MUI that was
closed, or any effort to reach out to Enforcement lawyers who may have closed MUIs
over prior years to try to figure out what MUI documents had been destroyed. Storch
Testimony Tr. at 110.

        IV.		    Allegations about Enforcement’s Records Retention Schedule for its
                 Investigations

         On September 6, 2011, Flynn and his attorney raised new allegations that the SEC
does not have authority to destroy the following three categories of documents that are
often created during the course of its investigations and that are currently not scheduled:
(1) documents produced by third parties; (2) internal work product; and (3) internal e­
mails. 40 On September 7, 2011, an Enforcement-wide memorandum was circulated
directing Enforcement staff to “retain all documents and records created, received, or
maintained for all matters (including MUIs, investigations, and litigation.)” September 7,
2011 Memorandum from Mark Cahn to All Enforcement Staff, attached as Exhibit 97.
Flynn’s attorney also raised these allegations with NARA, prompting NARA to send a
letter to Barry Walters, Director of the SEC’s Office of FOIA, Records Management, and
Security, on September 9, 2011, asking the SEC to:

                 Review this allegation and determine whether portions of
                 investigative case files may have been destroyed without
                 first being reviewed in accordance with [the current
40
    In a letter dated September 19, 2011, as the OIG was nearing the completion of this investigation,
Flynn’s attorney raised further concerns, including whether the Enforcement staff was still routinely
destroying MUI records, and whether the Enforcement staff may have routinely destroyed records during
“informal investigations.” In this letter, Flynn’s attorney also suggested that the OIG conduct an audit of
the Enforcement records keeping process. After the issuance of this report, the OIG will determine whether
additional investigations or audits are warranted in light of these allegations.

                                                    49

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 Enforcement records retention schedule.] NARA
                 specifically asks the SEC to determine if the closed case
                 files were reviewed by staff and the appropriate selection
                 criteria were applied pursuant to the approved records
                 retention schedule prior to any such destruction that may
                 have taken place.

September 9, 2011 Letter from Paul Wester to Barry Walters, attached as Exhibit 98.
        SEC1
                stated to the OIG in an interview that, based upon his own review of
representative material from each category, he believed that the three categories of
documents at issue are not records as described in 36 C.F.R. § 1222, unless they meet the
                                                                                  SEC1
criteria for Categories A though E records of the 1993 McLucas Memorandum.
Interview Memorandum at 1, 3. 

        SEC1
               stated in this interview that, based upon his direct communications with 

NARA, he understood NARA to have the same view that the three categories of
                                                  SEC1
documents at issue were not records. Id. at 1.             stated that written remarks in
NARA’s 1992 appraisal of the Enforcement schedule, which included a review of the
1989 Lynch Memorandum, referring to Category F documents as “miscellaneous
material” also indicated that documents that do not fall into Categories A through E
documents, such as third-party document production, work product, and internal e-mails,
                                          SEC1                                  SEC1
were not viewed as records by NARA.                Interview Memorandum.                also
                                                                                     SEC1
provided to the OIG an agenda from a July 16, 2010 meeting with NARA that
                                                                    SEC1
attended, with handwritten notes taken contemporaneously by                   Notes from July
                                             SEC1
16, 2010 Meeting, attached as Exhibit 99.              stated that these handwritten notes,
which are next to the item “Non-record status of unutilized background material” and
which state “Cat F don’t send to FRC, will fix @ FRC w/ redraft,” corroborated his
understanding that NARA viewed all Category F investigative material, which would
include third-party document production, work product, and internal e-mails, as having
                                                               SEC1
“non-record status” as “unutilized background material.”                Interview Memorandum
at 1.

        Flynn and his attorney offered as support for his assertion that it was Enforcement
policy that all internal e-mails be deleted upon closing a matter, a copy of the e-mail sent
to Enforcement staff upon closing an investigation that states unless there is a FOIA
concern, an access request from another agency, a preservation notice, an open
Congressional, Commission, or OIG inquiry, or the investigation is associated with an
omnibus formal order:

                 the only electronic documents that we are required to retain
                 in this case are email correspondence with outside parties.
                 While we are not required to retain internal emails which,
                 along with other work product, can be deleted, retaining


                                                   50

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



                 them is a permissible, and often simpler, option to sorting
                 out internal from external emails.

August 31, 2011 E-mail from Enforcement Records Management and Disposition,
attached as Exhibit 100.

       However, this e-mail also refers the Enforcement staff to Section 2 of the
Division’s Documents and Records Disposition Procedures for Closed Cases for more
information. Id. These Documents and Records Disposition Procedures, which are on
Enforcement’s intranet, state that all documents falling into Categories A through E
“must be retained and sent to storage . . . . If any such Records exists only in electronic
format, it can either be printed and retained in hard copy or burned to a disk and saved
separately in electronic format.” December 21, 2010 Documents and Records
Disposition Procedures For Closed Cases, attached as Exhibit 101, at 2.

        Thus, while it is Enforcement’s policy for any internal e-mails that are Categories
A through E records to be retained, the standard e-mail that has been sent to attorneys
upon closing an investigation may not adequately describe that policy. The OIG is
recommending that Enforcement review its guidance, including automatically generated
e-mails, to ensure that all guidance is consistent with Enforcement’s record retention
policies.

        Although the OIG did not find evidence substantiating the allegation that these
three categories of documents have been improperly destroyed, the OIG is recommending
that the SEC seek formal guidance from NARA to ensure that these documents are
disposed in accordance with Federal law. 41 The OIG is also recommending that the SEC
determine whether there are additional records that, while not legally required to be
retained, should be retained as a matter of Enforcement program policy, to enable the
Enforcement staff to understand what investigative work has been done in closed MUIs
and investigations.




41   SEC1
             stated to the OIG that he has recommended that Enforcement work product now be scheduled in
a draft proposed Enforcement schedule to NARA, not because work product met the Federal definition of
records, but because of the increased transparency expected by the public, including the January 21, 2009
Presidential Memorandum on Transparency and Open Government. SEC1 Interview Memorandum at 3;
January 21, 2009 Presidential Memorandum on Transparency and Open Government, attached as Exhibit
102. SEC1 also stated that an agency is permitted to schedule documents for retention even if the agency
is not legally required to retain the documents. SEC1 Interview Memorandum at 3. SEC1 stated that he
plans to recommend that the SEC include third-party production as part of this proposed schedule as a non-
record item because he wants to have an open conversation with NARA about the issue, and because he
wants an explicit record if an understanding is reached with NARA that third-party production is not a
Federal record and not scheduled to be retained. Id. On September 29, 2011, the SEC delivered a draft
records schedule to NARA reflecting SEC1        recommendations. Draft Retention Schedule, attached as
Exhibit 103.

                                                   51


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



        V.		     The SEC’s Destruction of MUI Records May Have Impacted its
                 Ability to Respond to FOIA Requests

       As noted in Section I.B., above, the 1993 McLucas Memorandum directed that,
upon closing a “case,” that the Enforcement staff retain, under Category F:

                 [a]ll other case material that does not fall within categories
                 A – E but must be held due to FOIA concerns. This
                 category was created in order to permit the Commission
                 temporarily to store records in the Federal Records Center
                 that are subject to a FOIA request and that would otherwise
                 not be retained.

Exhibit 31 at 3-4. Enforcement intranet guidance has been clear since at least as early as
2001 that, before closing an investigation, the Enforcement staff was required to confirm
in writing whether there were any FOIA concerns, such as a pending FOIA request or a
FOIA determination on appeal, and if so, to retain documents for the investigation in
accordance with the SEC FOIA Office’s guidance. See 2001 Case Closing Manual,
attached as Exhibit 27, at 3; 2002 Case Closing Manual, attached as Exhibit 32, at 2;
                                                                           SEC4 SEC4
2008 Case Closing Manual, attached as Exhibit 33, at 2-3. SEC4
stated to the OIG that the reason that Enforcement staff was required to confirm if there
were FOIA concerns upon closing an investigation was that the records retention
                                                                                    SEC4
schedule for the FOIA Office required that such records be retained for six years.
Interview Memorandum; General Records Schedule 14, attached as Exhibit 104, at 3.

       However, until July 20, 2010, the guidance from Enforcement stated that the
Enforcement staff did not need to check for outstanding FOIA concerns before it closed
MUIs and destroyed the MUI files. Exhibit 27 at 1-2; Exhibit 32 at 1-2; Exhibit 33 at 1­
2. As a result, documents generated in connection with MUIs that were closed without
becoming an investigation would not have been preserved even if there were outstanding
FOIA concerns relating to those MUIs. 42


                                           CONCLUSION

        The OIG investigation found that it had been the policy of Enforcement, from the
point of time in which MUIs were first created in approximately 1981 until July 20, 2010,
to dispose of all documents relating to a MUI that were closed without becoming
investigations. According to Enforcement, between October 1, 1992, and July 20, 2010,
Enforcement opened 23,289 MUIs. Of those 23,289 MUIs, 10,468 MUIs were closed
without becoming an investigation or another MUI.

42
    Walters testified that before the OIG investigation he had not been aware that Enforcement staff had
not been required to check for outstanding FOIA concerns before destroying documents related to closed
MUIs. Walters Testimony Tr. at 76.

                                                    52

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.




        The OIG investigation found Enforcement’s case closing manual, which had been
posted on Enforcement’s Intranet since at least 2001, specifically directed Enforcement
attorneys, “After you have closed a MUI that has not become an investigation, you
should dispose of any documents obtained in connection with the MUI.” The OIG did
not find evidence of an improper motive behind Enforcement’s longstanding policy of
destroying documents related to closed MUIs that did not become investigations although
there was a lack of clarity as to the rationale for the policy.

          The OIG investigation also found that the SEC’s Enforcement staff destroyed
documents related to closed MUIs that should have been preserved as federal records.
The OIG requested from the SEC’s Office of Records Management Services any records
pertaining to fifteen particular MUIs spanning in time from 1993 through 2009. The
Office of Records Management Services responded that it has no record of ever receiving
the files for these MUIs, and that “despite an extensive search of our holds and finding
aids . . . we cannot locate the material . . . .” The OIG reviewed the SEC’s electronic
database entries in NRSI for these MUIs, and interviewed SEC staff that had been
assigned to these MUIs, in an effort to determine whether federal records had been
created and whether they had been destroyed in connection with these MUIs. As a result
of this review, the OIG has found several instances in which federal records were created.
For example, the electronic database for a MUI relating to an investment bank, indicated
that the MUI was opened in March 4, 2002, and closed on July 11, 2002, and that the
MUI was opened because the SEC received an anonymous complaint from an accounting
firm. The federal records created in the course of this MUI included the original
complaint from the accounting firm, correspondence from the SEC requesting documents
from the investment bank, and correspondence to accompany the investment bank’s
document production. However, notwithstanding these instances of record destruction in
connection with MUIs that were closed without becoming investigations, the OIG is not
aware of a particular investigation that was hampered by the destruction of records for a
MUI, although the OIG has not conducted an exhaustive audit or review of the potential
impact on Enforcement investigations of the destruction of MUI documents over the
years.

        The OIG investigation also found that in June 2010, SEC Enforcement attorney
Darcy Flynn informed NARA that the SEC had been destroying records relating to MUIs
for years. In response, NARA sent a letter to the SEC on July 29, 2010 asking the SEC to
look into the apparent unauthorized disposal of Federal records and indicating that if the
SEC “confirm[ed] that Federal records have been destroyed improperly,” the SEC should
“ensure that no other such disposals take place and provide [NARA] with a written report
within 30 days of the date of this letter as required by” federal regulations, specifically
citing 36 C.F.R. § 1230.14.

       However, we found that in the process of drafting a response to NARA, the SEC
made no inquiries designed to determine whether MUI records were in fact destroyed.
Instead, Enforcement declared that it was “not aware of any specific instances of the

                                                   53


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



destruction of records from any [MUIs that were closed without a subsequent formal
investigation], but we cannot say with certainty that no such documents have been
destroyed over the past seventeen years.”

        We further found that the SEC’s August 27, 2010 response to NARA did not
comply with federal regulations as it did not provide “a complete description of the
records with volume and dates if known” and “a statement of the exact circumstances
surrounding the removal, defacing, alteration or destruction of records” as required by 36
C.F.R. § 1230.14. In addition, we found that the SEC’s response to NARA omitted
information important to understanding the scope and nature of the issue relating to the
destruction of MUI records. Most significantly, the SEC’s response omitted the fact that
it had been Enforcement’s policy to destroy all documents upon closing a MUI.
Moreover, despite the statement in the SEC’s August 27, 2010 response letter that “the
Division is not aware of any specific instances of the destruction of records from any
other MUI (i.e., a MUI that was closed without a subsequent formal investigation), but
we cannot say with certainty that no such documents have been destroyed over the past
seventeen years,” we found that the Division of Enforcement was aware of at least one
specific instance of the destruction of records from a MUI that was closed without a
subsequent formal investigation.

        The OIG investigation found that an Enforcement staff attorney was aware of the
destruction (in accordance with Enforcement policy at that time) of records in connection
with a MUI that she closed in July 2010. A few minutes after Enforcement sent
Division-wide guidance on July 20, 2010 to preserve certain documents related to MUIs,
the staff attorney sent an e-mail to the SEC’s records office stating: “I received approval
to close a MUI last week and I shredded the documents and deleted e-mails yesterday
(Monday). Is that a problem?” We found that even when Enforcement officials were
made aware in July 2010 that the staff attorney had raised concern about her recent
destruction of MUI documents, no effort was made to verify whether these documents
were federal records that needed to be maintained.
                             Arc1    Arc1
        NARA Archivist                     stated that she was not aware of the SEC staff
attorney’s July 2010 e-mail and stated that she “absolutely” would have wanted to know
that an SEC staff attorney had recently disposed of documents and e-mails related to a
closed MUI. In addition, the Chief Records Officer for NARA stated in a written opinion
to the OIG that, “Based on the investigative information provided in your letter, it does
appear that the statement [that ‘the Division is not aware of any specific instances of the
destruction of records from another MUI, but we cannot say with certainty that no such
documents have been destroyed over the past seventeen years . . .’] was inaccurate or
misleading.”
                                                                              ENF10
        Although the OIG did not find that assistant chief counsel         the signatory
to the SEC’s August 27, 2010 letter to NARA, was aware at the time he signed the letter
to NARA of a particular instance of the destruction of MUI records, and although he is
                      ENF10
not a records expert,        acknowledged in testimony that he was aware of the SEC’s

                                                   54


This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General’s approval.



policy to destroy documents upon closing MUIs, that he recalled being concerned that
federal records could be created as part of a MUI file, and that it was possible that NARA
would get the impression from the SEC’s letter that perhaps there were no documents
                                                     ENF4
destroyed upon closing MUIs. The OIG found that            an attorney in Enforcement’s
Office of Chief Counsel ENF4                                          s in Enforcement,
who played a primary role in drafting the August 27, 2010 response letter, was similarly
unaware of a particular instance of the destruction of MUI records, but was well aware of
the Enforcement policy prior to July 20, 2010 to destroy MUI documents upon closing,
which was not revealed in the letter to NARA. The OIG further found that Enforcement
Managing Executive Storch reviewed, offered edits, and participated in decisions and
multiple meetings concerning the SEC’s response letter to NARA, while aware that the
staff attorney had recently destroyed MUI documents, that the Enforcement policy had
been to destroy MUI documents, and that Flynn had noted that federal records that were
required to be preserved were frequently generated in the course of a MUI. While the
OIG did not find evidence that these individuals intentionally made materially false
statements in the response to NARA, 43 we do find that given their roles as senior
Enforcement officials and in light of the information that was available to them at the
time, they should have drafted a response to NARA that was more forthcoming.
Accordingly, we are referring this matter to the Director of Enforcement, for oral
                             ENF10    ENF4
instruction or counseling of                and Storch on the importance of providing full
and complete responses to official requests from federal agencies like NARA.

        The OIG investigation also found that, although Enforcement has destroyed,
pursuant to long-time policy, three categories of documents that are currently not
scheduled (documents produced by third parties, internal work product, and internal e-
mails), the SEC’s SEC1      has opined that these documents were not records that were
required to be retained. Although it does not appear that these three categories of
documents have been improperly destroyed without authority to do so, the OIG is
recommending that the SEC seek formal guidance from NARA to ensure that these
documents are disposed in accordance with Federal law.

        We are also providing the following additional recommendations. We
recommend that the Division of Enforcement: (1) take appropriate steps as necessary,
including coordination with Enforcement attorneys nationwide, to determine what federal
records from closed MUIs are retrievable, and ensure that any such federal records are
retained in the same manner that investigative records are retained pursuant to the current

43
     18 U.S.C. § 1001 prohibits individuals from making any materially false, fictitious, or fraudulent
statement or representation. The OIG did not find reasonable grounds to believe that ENF10       who signed
the SEC’s August 27, 2010 letter to NARA, violated this criminal statute by knowingly and willfully
making a false statement by stating that “the Division is not aware of any specific instances of the
destruction of records from [a MUI that had been closed], but we cannot say with certainty that no such
documents have been destroyed over the past seventeen years.” As discussed above, the OIG did not find
that ENF10   personally was aware of a particular instance of the destruction of MUI records.



                                                    55


            document Is subject to the provisions of the Privacy Act of 1974, and may require redaction before
       disclosure to third parties. No redaction has been performed by the Office of Inspector General.
       Recipients of this report should not disseminate or copy It without the Inspector General's approval.



       schedule with NARA; (2) work with the SEC's Office of Records Management Services
       and NARA to determine which MUI and investigative records are legally required to be
       retained; (3) determine if there are additional federal records that, while not legally
       required to be retained, should be retained as a matter of Enforcement program policy, to
       enable the Enforcement staff to understand what investigative work has been done in
       closed MUIs and investigations, or for other policy reasons; and (4) review its guidance,
       including as it relates to automatically generated e-mails, to ensure that all guidance is
       consistent with Enforcement's federal record retention legal obligations.

                  The OIG is referring this matter to the Director of Enforcement; the Chief
__-,-,-- _Qp~~!mg.Qm~.!.; t~~ J::)~p~_ty",f!!!e.~ofStaff, Office of the Chainnan; the General
           Counsel; the Ethics Counsel; and the' Acliilg AsSociate EXecutivc-Directt)yfor Human"
           Resources, for implementation of the aforementioned recommendations. In addition, we
           are providing copies of this report to Commissioners Elisse Walter, Luis Aguilar and
          Troy Paredes, for informational purposes.


                           PII



        Submitted:                                                   Date:              (Ofs/II
                     PII



        Concur:                                                      Date:           II) /~!J.N/
                                                                                         I     '




        Approved:                                                    Date:          /0 I ') /11




                                                           56
